<html>
<title> - IRAN'S SUPPORT FOR TERRORISM WORLDWIDE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                 IRAN'S SUPPORT FOR TERRORISM WORLDWIDE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2014

                               __________

                           Serial No. 113-125

                               __________

        Printed for the use of the Committee on Foreign Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE

86-958 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida<greek-l>       JUAN VARGAS, California
TREY RADEL, Florida--resigned 1/27/  BRADLEY S. SCHNEIDER, Illinois
    14 deg.                          JOSEPH P. KENNEDY III, 
DOUG COLLINS, Georgia                    Massachusetts
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
LUKE MESSER, Indiana

























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Pete Hoekstra, Shillman Senior fellow, The 
  Investigative Project on Terrorism (former chairman of the U.S. 
  House Permanent Select Committee on Intelligence)..............    10
Matthew Levitt, Ph.D., director and Fromer-Wexler fellow, Stein 
  Program on Counterterrorism and Intelligence, The Washington 
  Institute for Near East Policy.................................    23
Mr. J. Matthew McInnis, resident fellow, American Enterprise 
  Institute......................................................    33

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Pete Hoekstra: Prepared statement..................    13
Matthew Levitt, Ph.D.: Prepared statement........................    25
Mr. J. Matthew McInnis: Prepared statement.......................    35

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Prepared statement......................    71

 
                 IRAN'S SUPPORT FOR TERRORISM WORLDWIDE

                              ----------                              


                         TUESDAY, MARCH 4, 2014

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 10:10 a.m., 
in room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the Subcommittee on the Middle East and 
North Africa) presiding.
    Ms. Ros-Lehtinen. The joint subcommittee will come to 
order.
    After recognizing myself, Ranking Member Deutch, and 
Ranking Member Sherman for 5 minutes each for our opening 
statements, I will then recognize the chair of the full Foreign 
Affairs Committee, Mr. Royce for such time as he may consume. I 
will then recognize other members seeking recognition for 1 
minute.
    Unfortunately, due to weather, Mr. Poe has been delayed, 
but he hopes that he will be able to make it before our hearing 
ends. We will then hear from our witnesses, and without 
objection, the witnesses' prepared statements will be made a 
part of the record, and members may have 5 days to insert 
statements and questions for the record subject to the length 
limitations and the rules. The chair now recognizes herself for 
5 minutes.
    Last November, President Obama announced that the P5+1 and 
Iran had come to an interim agreement over Iran's nuclear 
program. The administration hails it as a big step forward, yet 
it refuses to allow the full details to be made public. I 
viewed the text, as have many others on our panel here today, 
and I don't see any reason for it to remain a state secret 
other than the administration doesn't want the American people 
to see how badly we got suckered. The joint plan of action is a 
lopsided bad deal for the United States and for our allies, 
like the democratic, Jewish State of Israel, and Iran continues 
to take advantage of it every day, and that is the crux of the 
problem here.
    The administration is asking us to trust it, that it can 
ensure that the Iranian regime plays by the rules when 35 years 
prove otherwise. So, today we are taking an in-depth look at 
exactly with whom we are dealing as the administration seeks to 
make deals with the Iranian regime.
    The hearing will focus on perhaps the most critical fact 
that has been downplayed and even ignored throughout this 
nuclear deal process, and that is the fact that Iran is the 
world's foremost state sponsor of terrorism.
    Iran is only one of four countries designated by the United 
States as a state sponsor of terrorism, SST. In order to be 
designated an SST, a country must have repeatedly provided 
support for acts of international terror, and that is a major 
part of Iran's foreign policy.
    Recently, we have seen Iran support terrorist acts in 
Europe, Africa, Southeast Asia, and even right here in 
Washington, DC, as an Iranian plot to assassinate the 
Ambassador of Saudi Arabia was uncovered. Then there is Iran's 
involvement in Latin America. Iran's presence there has grown 
rapidly and now poses a very serious threat to our national 
security.
    Last year I convened a hearing on the Iran-Syria Nexus, and 
Ambassador John Bolton testified that the largest Iranian 
diplomacy facility in the world is in Caracas, Venezuela, 
because that is where Iran launders its money. Yet even though 
all the evidence pointed to the contrary, the State Department 
issued a report that claimed that Iran's influence in Latin 
America is waning.
    Dr. Levitt, you testified at the time, that the report was 
incomplete, full of faulty assumptions, and that the proper 
people were not consulted before the report was issued. This is 
very troubling indeed, especially this year, the 20th 
anniversary of the AMIA bombings on the Jewish Community Center 
in Buenos Aires, Argentina that left 85 dead and hundreds more 
wounded.
    It is very troubling because it shows that the 
administration either doesn't have the full grasp of how 
dangerous Iran really is or is choosing to be willfully 
ignorant of the situation, and this, of course, doesn't even 
include Iran's support for terrorist activity and pro-Iranian 
armed forces in the Middle East.
    Iran's proxy, Hezbollah, has been wrecking havoc throughout 
the region for decades and has been responsible for numerous 
attacks, especially its incessant and deadly attacks aimed at 
Israel. Iran's Revolutionary Guard Corps and the Quds Force 
have cultivated and supported terrorist activities worldwide, 
providing money, arms, material, and fighters for terrorist 
groups all over the map.
    Most notably, Iran, through the IRGC, the Quds Force, and 
Hezbollah has been instrumental in propping up the Assad regime 
in Syria. Yet none of this was part of the Joint Plan of Action 
and none of this is being discussed as the administration 
attempts to reach a comprehensive agreement on Iran's nuclear 
plan.
    The administration is dealing with these talks as if Iran's 
nuclear program exists in a vacuum, as if the nuclear program 
is not somehow related to Iran support for terror, and the most 
dangerous part of these negotiations is that the administration 
is willing to ignore these facts and other aspects of the 
regime so that it can say that it has reached a deal with Iran.
    That is why I think this hearing is critical, so that we 
can draw attention to the true nature of the regime in Tehran.
    And with that, I am pleased to yield to the ranking member, 
my good friend from Florida, Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman, Chairman Poe, 
Ranking Member Sherman for holding today's hearing, and I thank 
you, Chairman Royce, for joining us.
    Thanks for our witnesses for being here today as well as we 
examine Iran's continued sponsorship of terror around the 
world.
    Despite recent renewal of direct engagement with Iran, the 
regime must understand that regardless of whether any progress 
is made on the nuclear issue, it cannot and it will not mean 
that the United States and our allies turn a blind eye to 
Iran's standing as the largest state sponsor of terrorism in 
the world.
    This is not simply a problem for Israel and the Middle 
East. In the aftermath of the Iraq war, the American public 
will not forget that it was Iran who was responsible for the 
improvised explosive devices that killed scores of American 
troops. Working mostly through its proxy Hezbollah, Iran has 
continually targeted American citizens and our allies in every 
corner of the globe, from 1983 Marine barracks bombing to the 
heinous 1994 bombing of the AMIA Jewish center in Argentina, to 
the 2012 attack on Israeli tourists in Burgas, Bulgaria, to the 
terrorist attacks against Israeli diplomats in India and 
Georgia, and the thwarted plots in Thailand, Kenya, and even 
right here in Washington, DC.
    What was once deemed a resistance movement aimed at Israel, 
Hezbollah, backed by millions of dollars in Iranian funding, 
has transformed into a global organization with no reservations 
of striking anywhere in the world. This behavior, according to 
a 2013 State Department report, has seen a marked increase in 
recent years.
    In addition to masterminding attacks around the world, Iran 
has been steadily expanding its global network of terror 
financing by fostering relationships in Latin America, Europe, 
Asia, and Africa. Hezbollah receives a large portion of its 
funding through activities in Latin America, primarily in areas 
with large Shia diasporas.
    And during the Ahmadinejad presidency, the regime weaseled 
its way into America's back yard, aligning itself with anti-
American leaders in Venezuela, Bolivia, and Ecuador. We all 
remember the pictures that Chairman Ros-Lehtinen placed around 
this room of Ahmadinejad embracing his Latin American friends 
on his tour of tyrants. Thank you, Madam Chairman, for coining 
that phrase.
    For years Ahmadinejad traveled the world announcing with 
great fanfare millions of dollars of investments in 
infrastructure and trade deals. Three-hundred-and-fifty million 
dollars for a seaport in Nicaragua, $120 million in research to 
support the construction of six water treatment plants in 
Sudan, $30 million to conduct joint mining projects in Ecuador. 
Iran and Algeria agreed to create 220 million Euro cement plant 
in Algeria together, owned 51 percent by Iran.
    And while many of these projects never came to fruition, 
they laid the groundwork for attracting those who may be 
sympathetic to Iran's intolerable ``Death to America'' mantra. 
It remains to be seen whether the more understated Rouhani will 
seek to further expand these relationships.
    And while Rouhani has seemed to share some desire to mend 
Iran's international image, many of us question whether he has 
any influence over the fundamental objectives of this regime. 
This is why, perhaps Iran's most troubling behavior has been 
the supreme leader's unwavering support for the murderous Assad 
regime in Syria. Despite the tremendous economic strain 
international sanctions have placed on the Iranian economy, 
this regime has chosen to spend billions of dollars sustaining 
Assad's grip on power instead of taking care of its own people. 
For the past 3 years, Iran, working through its proxy 
Hezbollah, and even directly through its elite Quds Force, has 
been funneling money, arms, and manpower directly into Syria.
    Iran also continues to be the largest funder of aggression 
toward our ally Israel. The regime funds Hamas and Islamic 
jihad, groups whose very existence is based on the destruction 
of the state of Israel and who are regularly responsible for 
indiscriminantly launching missiles at Israeli citizens. So, in 
attention focused on the Iranian nuclear crisis, it is 
important that we remind the world that we have not and we will 
not lose sight of Iran's destabilizing actions around the globe 
and of its blatant and unfettered support for heinous attacks 
on American citizens and on our allies.
    Make no mistake, this Congress will not lift terrorism-
related sanctions until Iran has ceased every bit of support--
direct and indirect--for these despicable acts of international 
terror.
    I look to our witnesses today to provide us with a more 
complete picture of Iran's activities and what drives its 
sustained support for international terrorism.
    And thank you, Madam Chairman, and I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    We will now yield to Mr. Sherman of California 5 minutes 
for his opening remarks.
    Mr. Sherman. First as to the agreement reached in Geneva, I 
share the chairwoman's concerns to some degree, but with 
anything you have to ask, compared to what? In October 2013, we 
had sanctions in Iran which were insufficient to stop a single 
centrifuge. We didn't have a great policy before this 
agreement.
    And from 1998 to 2010, three administrations blocked every 
effort of this committee to impose additional sanctions on Iran 
and refused to enforce not every effort but virtually every 
effort, and refused to enforce the sanctions laws we did have.
    So this latest policy, must be compared to our previous 
policy, and on that basis, it may be a step in the right 
direction. These hearings are held on Iranian terrorism but 
with the knowledge of Iran's nuclear weapon's program. We are 
often asked, so what is the problem with Iran having a nuclear 
weapon? The Soviet Union had nuclear weapons and never used 
them.
    First and foremost, we are going to see terrorism with 
impunity. This is not a shy or reticent government. As the last 
two speakers have pointed out, we have seen Iran knowing that 
it could be subject to response to retaliatory bombing attacks 
on its own territory from the U.S. Air Force or others, but 
even knowing that, they have conducted terrorist operations in 
Lebanon, Syria, tried to kill the Ambassador here in DC, 
Bulgaria, Thailand, India, Georgia, and two raids and more in 
the 1990s in Argentina.
    Now imagine terrorism with impunity. With this terrorism 
comes confrontation. Every time Hezbollah missiles rain down 
onto Israel, Israel may respond. We saw with the Cuban missile 
crisis how these things can escalate upward. How many Cuban 
missile crises do we want to have with Iran? Do we really 
believe that the government in Tehran is as sane and reasonable 
as Khruschev? Terrorism by a nuclear Iran will be on a large 
scale, will require a response, and every response has the 
possibility of getting out of hand.
    We are asked to compare North Korea's nuclear program to 
Iran's. North Korea wants to oppress its own people. It has 
committed terrible acts, all of them in or within a few miles 
of its own territory; whereas, there is not a continent in the 
world, with the possible exception of Antarctica in which Iran 
has not already tried to commit an act of terror. This is a 
regime with worldwide scope in its terrorist activities and 
worldwide ambitions for promoting its particular brand of an 
Islamic state.
    So, if we allow Iran to develop a nuclear weapon, we will 
see a massive expansion in its already substantial terrorist 
activity that has already earned it from our State Department 
year after year the brand of the number one state sponsor of 
terrorism.
    And of course, this will affect Israel, but it will 
certainly affect the United States. How many Ambassadors will 
be assassinated in Washington or New York by a nuclear Iran? 
Iran did not hesitate through its proxy Hezbollah, to kill 
hundreds of our Marines during the Reagan administration in 
Lebanon. They will be even more emboldened. And so the efforts 
against terrorism and the efforts against a nuclear Iran 
coincide.
    Finally, Iran's greatest act of terrorism in terms of loss 
of life, at least outside of its own borders, is the propping 
up of the Assad regime. 140,000 Syrians have died. If it wasn't 
for Iran, Assad would be already swept into the dustbin of 
history, yet there he is, and who is to say he will not kill 
another 140,000.
    And in this room we have often said that America should not 
repair the supposedly civilian planes of Iran's airlines. Those 
planes have been used to take Quds officers, to take Hezbollah 
thugs to Damascus where they kill the Syrian people, and it is 
time to say those planes should be grounded until Iran changes 
its behavior.
    I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Sherman.
    And both of our subcommittees' members are very honored to 
have the full committee chairman with us today.
    Mr. Royce is recognized for as much time as he may consume.
    Mr. Royce. Well, let me begin by thanking Chairwoman Ros-
Lehtinen for the continued oversight that she and the ranking 
member here of this committee give on the interim agreement 
with Iran. And also the efforts to address this broader threat 
posed by the Iranian regime.
    You know, before I go farther, there is a delegation that I 
wanted to recognize here, Chairman, and that delegation, if I 
could ask them to stand, is from Indonesia, and this is part of 
the legislative partnership program we have in 2014 for those 
who work in the legislature in Indonesia. We were in Jakarta in 
August, and I had an opportunity to meet many of them, and we 
are very proud of the relationship with Indonesia and this 
legislative exchange. Thank you very much for being with us.
    I also just want to say our former colleague, Chairman 
Hoekstra, will remember on this broader theme the comment that 
Dick Armitage once made to the intelligence community which was 
that Hezbollah may be the A Team of terrorists, but in fact, 
al-Qaeda is actually the B Team because Hezbollah, of course, 
controlled by Iran is the major, the major challenge as we look 
at terrorism worldwide.
    And there are two aspects of this. One is Iran's efforts to 
acquire nuclear weapons capability. That is one of the greatest 
threat to U.S. security, to our interest in the Middle East, 
certainly to our allies, but the nuclear aspect there of this 
threat is only one aspect of the challenge that we face because 
too often overlooked, is this equally important role of Iran's 
terrorist activities, and we should remember that our 
sanctions, which we implemented, including the most effective 
oil and financial sanctions back in 2012, those of us on this 
committee worked many, many years to try to advance this 
concept of sanctions, and they exist not only because of Iran's 
nuclear program, but also because of Iran's terror program.
    And Iran's status as the world's leading state sponsor of 
terrorism is very well deserved for those of us who regularly 
sit through these briefings of assassinations, assassinations 
done, you know, in Europe, in Central Asia, South Asia, 
conducted by Iran and not just external but assassinations and 
executions inside the country.
    I think one of the things that is most disturbing to many 
of us is the fact that the executions have actually increased 
in Iran here under President Rouhani as head of state. We see 
an increase in the number of religious leaders and political 
leaders who are being taken out and executed. This regime, this 
Islamic republic is a regime--foments bloodshed, promotes 
chaos, not just to the West Bank, not just in Gaza, not just, 
you know, in Iraq and Afghanistan, not just in Lebanon, and I 
will just make a note about Lebanon. I was there during the 
second Lebanon war, and I watched those Iranian made and Syrian 
made rockets come crashing into civilian neighborhoods. We were 
at the trauma hospital. 600 victims of this kind of state 
sponsor of terrorism, and afterwards, when the I.D. badges were 
found, who had been on the ground helping Hezbollah launch 
these things? Iranian intelligence agents.
    So, you know, as their meddling increases, our U.S. allies, 
our partners in the region such as Bahrain, which they are 
trying to topple, Saudi Arabia and there is this Shia minority 
there, and regularly Iran tries to kindle that low level 
insurgency out there.
    Yemen, which Middle Eastern Ambassadors tell me is that 
close to being toppled, they bare the brunt of an emboldened 
Iran, and so that is why we need to keep the pressure on, and 
unfortunately, the scope of those plans continue to grow as 
successive administrations, and in my view, this has been a 
problem in administrations of both political parties, they have 
been reluctant to forcefully respond, including the subdued 
response in the face of Iranian proxies killing American 
soldiers in Iraq and in Afghanistan.
    And I would make one point here. Daqduq is a Hezbollah 
member, a mastermind of the attack in January 2007 which 
resulted in the deaths of five U.S. servicemen in Iraq, 
disguised as U.S. military personnel in black SUVs, Iranian-
backed operatives opened fire on our five U.S. servicemen 
there. One died immediately. Four others were captured by these 
agents. They were brutally tortured, and then they were 
executed. Daqduq, by the way, was handed over to the Iraqi 
Government, and of course, he was eventually, unfortunately, 
released to Lebanon. Allowing his release was a gross failure 
by the administration.
    And I would just also quote our former CENTCOM Commander, 
General James Mattis. He criticized the administration's weak 
response in dealing with the Iranian plot to assassinate the 
Ambassador of Saudi Arabia here, and in 2013, he said they 
actually set out to do it. It was not a rogue agent off on his 
own. This decision was taken at the very highest levels in 
Iran. Again, absent one mistake, they would have murdered Abdel 
and the Americans at the restaurant a couple of miles from the 
White House. Referencing the real threat Iran poses to the 
U.S., Mattis also stated that while he was overseeing the wars 
in Afghanistan and Iraq, the first thing I asked my briefers 
about when I woke up every morning was Iran, Iran, Iran.
    Now, I would point out it is not just Americans that would 
have lost their lives in that attempted bombing because I have 
talked to many Middle Eastern Ambassadors who say it was not 
just the Saudi Ambassador that lunches at the Cafe Milano. They 
said when this operative is quoted as saying that 100 dead 
would just be collateral damage, as Ambassadors, several of 
them told me, we were the collateral damage that he's talking 
about when he was attempting to target the Saudi Ambassador.
    So, I think this, very unfortunately, you know, the scope 
of their plans, as I said, continues to grow, the response is 
ineffectual, and unfortunately, the current administration 
shares this limited vision of how we respond to Iran. The Obama 
administration did little in these cases of trying to really 
clamp down on the Iranian regime, and the administration has 
failed to recognize or effectively address Iran's support for 
Hezbollah, which is fighting for Assad, as you know, in Syria, 
and meanwhile, Iran is spreading its use of Islamist terrorist 
proxies, as Chairman Ileana Ros-Lehtinen has pointed out, not 
only across Africa and the Middle East but also to Latin 
America.
    It is worrying that they would use these new footholds to 
destabilize other states and again launch terrorist attacks 
against U.S. interests, and this hearing raises an important 
concern.
    And this is what I would like the members to just reflect 
on for a minute. If this is what Iran is doing today without a 
nuclear weapon, what will Iran do if it is ever emboldened with 
a bomb. We cannot afford to find out.
    Thank you.
    Ms. Ros-Lehtinen. Excellent presentation. Thank you so 
much, Mr. Chairman.
    I will now recognize members for 1 minute opening 
statements, and we will begin with Mr. Lowenthal.
    Mr. Lowenthal. I pass.
    Ms. Ros-Lehtinen. Mr. Lowenthal passes.
    We will go to Mr. Cicilline.
    Mr. Cicilline. Thank you, Chairman Ros-Lehtinen and 
Chairman Poe and Ranking Member Deutch and Ranking Member 
Sherman for holding today's joint hearing on this very 
important issue.
    The continuing threat that Iran poses to international 
stability is of paramount concern to the United States and our 
allies and all those who care about freedom, rule of law and 
the ongoing fight against global terrorism and addressing that 
threat must continue to be a top priority of the United States' 
foreign policy.
    Even as we continue to monitor negotiations regarding 
Iran's nuclear program, we must also address other risks, 
especially how Iran has and continues to support terrorism in 
the region and around the world. We must make a concerted 
effort to better understand the violence that is currently 
occurring in the Middle East and how the United States can 
predict, identify and prevent terrorism and ultimately support 
peaceful democracy in the region.
    The message that we must send must be very clear. Although 
our recent focus has been on nuclear weapons, terrorism will 
not be tolerated. The United States will stand on the side of 
democracy and freedom and do all we can working with our 
partners to prevent terrorism around the world.
    I look forward to hearing the perspectives of the witnesses 
this morning and thank the chair for calling this important 
meeting as we discuss Iran's support of terrorism around the 
world.
    I thank the chairman, and I yield back.
    Ms. Ros-Lehtinen. Thank you, sir. And now we will recognize 
Mr. Brooks.
    Mr. Brooks. Thank you.
    In 1817, Thomas Jefferson stated that ``knowledge is power 
and knowledge is safety.''
    I would like to thank the chair of the subcommittee for 
conducting this hearing on terrorist activities and threats 
posed by Iran. America has been somewhat blindsided by recent 
Syrian events and blindsided by recent Ukrainian events 
relating in loss of life, and quite frankly, ineffectual 
preventive policies. Hopefully, this hearing will illuminate 
and provide the kind of knowledge that is needed to develop 
effective policies that thwart the terrorist goals of the 
Iranian regime and help preserve peace throughout the world.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Brooks. Mr. 
Vargas.
    Mr. Vargas. Thank you very much, Madam Chair. I want to 
thank you again for holding this hearing, as well as the 
ranking member and the chair of the full committee.
    As you know, I have been very critical of the interim 
agreement that we have had with Iran. I think it is based on a 
very naive view of Iran, and actually, probably a naive view of 
the world. So, I think it has been a mistake to relax sanctions 
on Iran. I think we need to strengthen and tighten them. I 
think that they were working. They just needed to be stronger.
    And I hope I am wrong, but I don't think I am wrong. In 
fact, I think we have heard from Rouhani himself that he got us 
at the negotiating table. So I am not at the moment very 
positive about the direction that we are going, but I am very 
happy that we are holding this hearing to take a look at all 
the other terroristic acts that this nation has done around the 
world.
    But again, I hope we don't lose focus on a nuclear Iran 
because I think that is really the most important thing. It is 
good to look at all these other issues, but I think the 
greatest threat to our security is a nuclear Iran, and I hope 
we don't lose focus on that.
    Thank you. Thank you again.
    Ms. Ros-Lehtinen. Thank you, sir. Mr. Cook.
    Mr. Cook. Thank you, Madam Chairman. I also want to thank 
you for having this hearing.
    I look forward to hearing what our witnesses have to say, 
and it is somewhat ironic, I think, that a few people realize 
that I have addressed the Beirut bombing in 1983. It has a 
special place in my heart. That was my former Battalion in the 
Marine Corps, 1st Battalion 8th Marines, and a number of 
friends, colleagues, Marines died there, and the situation has, 
quite frankly, only gotten worse in terms of Hezbollah and the 
Iranian proxies that are all over the world.
    So thank you very much again for having this hearing.
    Ms. Ros-Lehtinen. Thank you, Mr. Cook. Mr. Schneider.
    Mr. Schneider. Thank you, Madam Chair. I want to thank the 
chair and the ranking members for holding this hearing as was 
previously mentioned, at a critical time.
    Iran is a worldwide sponsor of terrorism. They have funded 
or committed acts in countries literally, I said before, on 
every continent.
    As we get into the questions, I look forward to what 
witnesses have to say, but in particular what I look forward to 
is understanding how their funding has affected other terrorist 
groups within the regions of the world, including here in the 
Western Hemisphere.
    And in particular, as we get into it, understanding how 
those relationships have changed in some of the remarks 
previously submitted from proxy to partnerships, and what those 
partnerships mean to us. It is an issue that we will be facing 
for a long time. We need to have policy that is structured on 
understanding and knowledge.
    So again, I thank you for this hearing.
    Ms. Ros-Lehtinen. Thank you, Mr. Schneider. Mr. Meadows.
    Mr. Meadows. Thank you, Madam Chair, and much of what has 
been laid out today sets forth the foundation for what we are 
here to deal with and what I look forward to hearing from you.
    I would make 2 points. For the American people that are 
watching, the connection between Hezbollah and Iran is 
undeniable, going back to 1982 and some estimated $6 billion 
have now been funneled into terrorist activities through that, 
at the direction of Iran. Even the second in command of 
Hezbollah admits that they get their directions from Iran.
    And the second part, and the Ukraine shows us this, is that 
foreign policy in action is not like a fine wine. It doesn't 
improve with time.
    So I look forward to hearing from each one of you what 
actions, specifically, we can take in encouraging the 
administration on a foreign policy that actually addresses this 
issue.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Meadows. Mr. Cotton.
    Mr. Cotton. Thank you, Madam Chair, and thank you to our 
witnesses for addressing us on this very important topic.
    A nuclear Iran is the gravest threat we face from Iran, but 
the terrorist threat that Iran poses does have two important 
links to it. Obviously, it reveals the soul of the regime and 
what they think of freedom and freedom loving peoples 
everywhere. They have killed numerous Americans around the 
world through their terrorist activities to include some of my 
comrades in arms in Iraq when I was a platoon leader there, 
through the export of explosively foreign projectiles, a 
particularly lethal kind of IED that killed many American 
troops.
    Second, a nuclear Iran would be operating with a massive 
deterrent that would only embolden its terrorist activities 
around the world.
    So I do very much appreciate the chair for holding the 
hearing and our witnesses today for addressing this important 
topic.
    Ms. Ros-Lehtinen. Thank you again for your service, Mr. 
Cotton.
    And we are so pleased to now present our panelists.
    We welcome our former U.S. Congressman, our dear colleague, 
Pete Hoekstra. He is currently a Shillman senior fellow at the 
Investigative Project on Terrorism. Pete served as a Member of 
Congress from Michigan for 18 years, and in 2004, he was named 
chairman of the House Permanent Select Committee on 
Intelligence, and in this role he helped lead congressional 
oversight of U.S. intelligence as this adapted to the 
challenges of the global war on terror. Prior to his 
appointment as chair, he chaired the subcommittee on technical 
and tactical intelligence. In January 2011, the director of 
National Intelligence awarded Chairman Hoekstra the National 
Intelligence Distinguished Public Service medal. Welcome back, 
Pete.
    Next we will welcome Dr. Matthew Levitt. Thank you, Dr. 
Levitt, who is the Fromer-Wexler fellow and director of the 
Washington Institute Stein Program on Counterterrorism and 
Intelligence. Dr. Levitt brings extensive experience in 
counterterrorism and intelligence, serving from 2005 to 2007 as 
Deputy Assistant Secretary for Intelligence and Analysis at the 
U.S. Department of Treasury, at the State Department as 
Counterterrorism Director to General James L. Jones, and as a 
Counterterrorism Intelligence Analyst at the FBI. Welcome, Dr. 
Levitt.
    And lastly, Mr. Matthew McInnis, welcome to our 
subcommittees. He is a resident fellow at the American 
Enterprise Institute where he focuses on Iran, regional 
security issues in the Persian Gulf, and the effectiveness of 
U.S. intelligence. Prior to this, he served as a senior analyst 
and in other leadership positions for the Department of 
Defense.
    Thank you, gentlemen for joining us. Your entire testimony 
will be made part of the record, and please feel free to 
summarize in 5 minutes.
    We will start with Chairman Hoekstra. Welcome back, Pete.

   STATEMENT OF THE HONORABLE PETE HOEKSTRA, SHILLMAN SENIOR 
FELLOW, THE INVESTIGATIVE PROJECT ON TERRORISM (FORMER CHAIRMAN 
 OF THE U.S. HOUSE PERMANENT SELECT COMMITTEE ON INTELLIGENCE)

    Mr. Hoekstra. Chairwoman, thank you very much.
    Ranking Members Deutch and Sherman, and distinguished 
members of the committee, it is nice to be back, and thank you 
for providing me with the opportunity to testify today.
    I have had the opportunity to work with many of you. I 
appreciate your bipartisan approach to developing effective 
U.S. foreign policy. From my work on the intelligence 
committee, I know how hard foreign affairs is and the number of 
unknowns that one must deal with.
    In that context, I congratulate you on your efforts, and it 
is absolutely essential. The world is looking for America to 
speak with a single strong and unified voice. Today, there is 
so much to say and so little time to say it. Let me summarize 
my written testimony.
    I believe that you need to look at international events in 
a broad context over a period of time. What happens in Iran 
doesn't stay in Iran. It has global ramifications. Iran has had 
a long and dark past. For over 30 years, Iran has faced 
sanctions for a variety of reasons, the hostage crisis, the 
bombing of the Marine barracks, financial aid to terrorism, a 
ballistic missile program, its nuclear program, sanctions have 
always been about the breadth of Iran's behavior. They have 
never been narrowly focused.
    We have all witnessed Iran's terrorist activities and 
growing sphere of influence around the world, reaching our 
doorstep and actually reaching into the United States. This is 
of immense concern. It has all been well documented. From the 
killing of U.S. Marines in Lebanon to attempting to assassinate 
a foreign Ambassador in Washington, DC, Iran's past is dark. 
There is no debate about that, but what can we expect in the 
future?
    I believe that Iran can be expected to continue its past 
activities aggressively, especially in South and Central 
America. With the easing of sanctions, there is no pressure to 
change. More importantly, as I prepared this testimony last 
week, I didn't anticipate the events that occurred this 
weekend. What happens in Ukraine does not stay in Ukraine. I 
was going to focus on two more transformational possibilities, 
fundamental changes that would radically alter the national 
security calculus between the United States and Iran. These two 
areas for fundamental change are Iranian cyber capabilities and 
Iran developing a closer relationship with Russia.
    First, let me talk about Iran's cyber warfare capability. 
Cyber reaches globally, it crosses borders effortlessly. In 
cyber world, it is hard to identify attackers, it is difficult 
to defend against, and a cyber attack can have a significant 
impact. Iran recognizes this. They have made a significant 
commitment to develop cyber capabilities, and they are doing it 
successfully. In a very short period of time, Iran has moved 
from a Tier 2/Tier 3 capability to being almost world class in 
the cyber area, nipping at the heels of the United States, 
Russia, China, and Israel. Iran has used these capabilities to 
hack into U.S. financial institutions and even our own defense 
establishment. Even as Iran has increased its cyber capability, 
General Keith Alexander, the head of U.S. Cyber Command, admits 
that the United States may not be fully prepared to defend 
itself against a cyber attack. The cyber threat is real and it 
is worrisome.
    Finally, the events of the weekend ensure that Iran and 
Russia will develop a much closer relationship. It has moved 
from ``if'' to how fast and how far that relationship will 
grow. Russia and Iran both have so much to gain from more 
significant cooperation. I think the immediate impacts will be 
profound.
    The P5+1 talks were difficult to begin with. I think the 
President even himself admitted that there is perhaps a 50/50 
chance of success, the events of the weekend, I think, make it 
almost impossible for us to expect that the P5+1 talks on 
Iran's nuclear program will be successful.
    Reimposing sanctions will be difficult, if not impossible. 
Russia will continue to support and increase its assistance to 
Iran's cyber program as Iran continues to develop offensive and 
defensive capabilities. And that is just the immediate impact 
of closer cooperation.
    Where does that leave us? Israel and Hezbollah's past is 
dark. Iran's increasing cyber capabilities and its closer 
relationship with Russia foreshadows an even darker future.
    That concludes my testimony. I look forward to your 
questions.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Hoekstra.
    [The prepared statement of Mr. Hoekstra follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Dr. Levitt.

STATEMENT OF MATTHEW LEVITT, PH.D., DIRECTOR AND FROMER-WEXLER 
FELLOW, STEIN PROGRAM ON COUNTERTERRORISM AND INTELLIGENCE, THE 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Levitt. Madam Chairwoman, ranking members, members of 
the subcommittees, thank you so much for the opportunity to 
testify before you today.
    This hearing is indeed timely. Over the past few years, 
Iran's state sponsorship of terrorism has increased 
dramatically to levels not seen since the late 1980s and early 
1990s. Some of this terrorism is carried out by Iran's own Quds 
Force, some of it is carried out by Hezbollah, its primary 
proxy or others, some of it is the two of them together, and 
this should not surprise.
    We no longer see the Iranian Hezbollah relationship as a 
proxy-patron relationship but as a strategic partnership with 
Iran as the primary partner to quote senior U.S. intelligence 
officials, and that makes all the difference. Events in Syria 
today have further cemented this partnership with dire 
consequences for regional and international security.
    In 2012, the State Department talked about this marked 
increase, and we had of course the plot at Cafe Milano that 
several of you have mentioned already, but I want to point out 
that senior law enforcement officials at the time noted, though 
few have picked up on it, that this was only one of a number of 
violent missions Iranian operatives discussed carrying out at 
the time.
    Over the past year, the operational tempo of the types of 
plots we saw around the world by Hezbollah and Iran appear to 
have decreased significantly, and some suggest that this might 
have to do with the election of President Rouhani who is a 
relatively more moderate, the subsequent negotiations of Iran's 
nuclear program, and maybe that has played some peripheral 
role, but I think that the main reason that we are seeing this 
drawback is actually because Iran and Hezbollah are all in 
their investment in the defense of the regime of Bashar al-
Assad in Syria.
    They are completely absorbed in what they see as an 
existential battle, and this battle, by the way, from their 
perspective has--well, from any perspective, has clearly 
yielded results, whereas U.S. intelligence predicted early on 
that the Assad regime's days were numbered. That assessment was 
quickly revisited once Iran convinced Hezbollah to go in and 
support the Assad regime as it has all in. They just don't have 
the bandwidth to simultaneously prosecate this kind of global 
asymmetric battle and do what they are doing in Syria, which is 
paramount for them at the same time.
    But Iranian surveillance and terrorist plots continue 
around the world, so for example, in September 2013, an Iranian 
with Belgian citizenship was arrested for conducting 
surveillance outside the U.S. Embassy in Tel-Aviv. In July 
2013, 7 Iranians were caught using fake Israeli passports at 
Vancouver International Airport, and 2 months later, three men, 
one Iranian, and we believe two possible Eastern Europeans were 
arrested at the Brussels Airport, again with forged Israeli 
passports attempting to fly to Toronto and Montreal.
    As I explain in my written testimony, more standard Iranian 
state sponsorship of terrorism continues around the world. U.S. 
Treasury designations have recently noted that IRGC Quds Force 
operatives in Afghanistan were planning to carry out attacks 
there, that Mahan Air, which had already been designated by 
Treasury, Treasury designated more affiliates, not because of 
the proliferation issue but because these elements were 
facilitating the shipment of cargo to the Syrian regime.
    In Yemen, there have been all kinds of weapons shipments to 
the Houthis rebels, and Bahrain, this continues. And indeed, 
just yesterday, we had a bombing killing three policemen, two 
Bahrainians, and an Emirati, and today, just this morning, the 
chief of Dubai police has said, according to their information, 
at least one of the bombers got his training from Hezbollah in 
Lebanon.
    Of course, Iran continues to undermine the peace process 
not only through Hamas. That relationship was badly damaged, 
but now there is the beginning of a reproshma between the two, 
but increasingly, Palestinian Islamic Jihad, State Department 
just designed the Deputy Secretary General of Islamic Jihad, he 
went to Iran, quite proudly was received, there was just 
another attack, or attempted attack yesterday, and the Israelis 
bombed someone, an Islamic Jihad operative who was trying to 
fire rockets at Israel at the time.
    But of course, the main issue right now is, as I mentioned, 
Syria, and not just Syria, but the implications for the region, 
and in particular, for Lebanon. Most people talk about the 
Sunni farm fighter phenomenon, and that is very important, but 
there are at least as many Shia farm fighters in Iraq, and most 
of them are Iraqi farm fighters, but not only, Bahrainis, 
Yemeni, Afghans, and others, and this is a huge, huge problem.
    The bottom line is that with Hezbollah and Iran in Syria 
and with Iranian terrorism continuing around the world, it is 
important to take a step back. I think that it is important to 
note that Iran sees terrorism, political violence, and other 
militant activities as policy tools that are no less, no more 
legitimate than any other means of affecting their foreign or 
for that matter domestic policy concerns. It should therefore 
not surprise that even under the regime of President Rouhani, 
and even as Tehran engages in the P5+1 talks over its nuclear 
program, Iran's support for terrorism continues. This should 
not surprise at all. Time and again, Iran has found such 
activities to be both effective and financially and politically 
inexpensive, without cost.
    Moving forward, Washington and our allies, the P5+1 and 
beyond must find credible ways of communicating to Iran that 
continuing to engage in such activities will incur a heavy 
price. In the context of current events, that might be 
difficult to do, but failure to do so guarantees a far less 
stable region with dire consequences for regional and 
international security.
    Thank you very much.
    Ms. Ros-Lehtinen. Thank you, Dr. Levitt.
    [The prepared statement of Mr. Levitt follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Mr. McInnis.

STATEMENT OF MR. J. MATTHEW MCINNIS, RESIDENT FELLOW, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. McInnis. Thank you, Chairwoman Ros-Lehtinen and Ranking 
Members Deutch and Sherman, and other distinguished members of 
the House Committee on Foreign Affairs for inviting me to 
testify today and for highlighting the importance of this 
issue.
    If the U.S. is to develop more effective policies against 
Iranian backed terrorism, we first need to understand why Iran 
pursues these activities. I believe there are two primary 
reasons. First, terrorism helps protect the regime. The Iranian 
threat network, which includes the IRGC, Quds Force, Hezbollah, 
and Iran's proxies in Iraq, Syria, and elsewhere, serve as both 
a deterrent and retaliatory weapon. Tehran recognizes its 
conventional military capabilities are inadequate to deter the 
U.S. and other powers, and it uses terrorism to compensate for 
this relative weakness.
    Second, the Iranian threat network is the backbone and 
primary vehicle for the spread of Iran's revolutionary ideas, 
and its political, economic and security resistance to the 
West, Israel, and our Arab allies. The Islamic republic must 
successfully propagate its ideology and its soft power, 
otherwise, the legitimacy of the entire regime comes into 
question.
    This is why maintaining and expanding its proxy forces and 
subversive activities in the region and globally is an 
existential issue for Tehran, even perhaps more so than having 
a nuclear weapons capability. Its foreign policies will, by 
definition, continue to obstruct American National interests, 
regardless of the results of the current negotiations toward a 
comprehensive nuclear agreement.
    The recent escalation in the activity of the IRGC and Quds 
Force, as Dr. Levitt has noted, is a response to the Arab 
spring, the Syrian civil war, and the growing confrontation 
over Iran's nuclear program. Prior to 2011, Iran could use 
Syria as its primary forward operating base in the Middle East 
without paying substantial cost.
    However, Tehran can no longer maintain this on the cheap. 
Iran will have great difficulty in deterring Israel, projecting 
power in Levant, maintaining its crown jewel of Lebanese 
Hezbollah, keeping its enemies occupied away from its border, 
and justifying the ideological tenets of the regime's foreign 
policy if Syria is lost.
    The IRGC and the Quds Force are also likely girding 
themselves for an escalating sectarian conflict in the region 
stemming from the proxy war in Syria. This could include a 
possible end to the relative detente Iran has had with al-Qaeda 
and other Sunni extremist groups since 9/11, as we may be 
seeing in the recent terrorist attacks against Iranian and 
Hezbollah diplomatic and other targets in Lebanon and Pakistan.
    I believe the need to prioritize resources on the sectarian 
fight is also a contributing factor for the regime's desire to 
find a deal on the nuclear program that will relieve sanctions 
and western pressure.
    Finally, heightened fears of a strike against Iran's 
nuclear facilities over the past 3 years have likely driven the 
Quds Force to expand its presence and retaliatory capabilities. 
As we proceeded with the current nuclear negotiations, it will 
be interesting to see if the Quds Force begins to maintain a 
lower profile outside of Syria. The supreme leader has made 
clear though that any agreement on the nuclear program will not 
change its resistance efforts against the U.S. and our allies.
    So what should we do? I believe the U.S. should develop a 
much more comprehensive policy employing both direct 
counterterrorism and competitive strategies using both soft and 
hard power to blunt the IRGC and the Quds Force. The direct 
approaches are fairly straightforward. The U.S. needs a more 
focused and coordinated structure inside the government to 
target and undermine the Iranian threat network. In particular, 
this means going after their financial networks, working with 
partners to expose operatives and illicit activities around the 
world and challenging Lebanese Hezbollah and the IRGC more 
aggressively in Syria.
    As I examine in more depth in my written testimony, 
effective competitive strategies also offer us an opportunity 
to undermine Iran's confidence in its own policies, on more 
efficiently using our resources, and avoiding direct conflict. 
Taking advantage of our economic and military strengths, we 
should look to induce self-defeating behavior in Iran such as 
overreach in Syria or overinvestment in protecting itself from 
American power. We should exploit blind spots like Iran's 
tendency to overestimate its ideological attraction in the 
Islamic world and make the region less fertile for Iran's 
proxies and political activities.
    Successfully unraveling components of Iran's hard and soft 
power strategies in the Levant and elsewhere in the world would 
radically increase western leverage to address the full 
spectrum of our concerns with the Iranian regime. It would also 
offer the best chance of eventually pushing the regime toward 
becoming a state that no longer seeks to undermine its 
neighbors, subvert the international system, and use terrorism 
and violence to achieve its foreign policy goals.
    Such a fundamental change in the nature of the Iranian 
state would be of far greater benefit to our interests and even 
checking Tehran's nuclear program or expanding conventional 
military capabilities. We need such policies.
    And thank you again for inviting me here today.
    Ms. Ros-Lehtinen. Thank you so much, gentlemen, for your 
excellent testimony.
    [The prepared statement of Mr. McInnis follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. I will begin the question aspect of this 
hearing.
    Mr. McInnis, you testified that everything Iran does, its 
soft power, hard power projections, they are all interconnected 
and related to its revolutionary nature. Iran's foreign policy 
is related to external and internal politics, and is related to 
its diplomatic, economic, and security activity. And you say 
that its threat of terror, proxy warfare, and its nuclear 
weapons program all serve as enablers of its objectives, which 
are all counter to U.S. goals.
    So, my first question for all out of our witnesses is this. 
How can we continue to negotiate with an Iranian regime over 
its nuclear program, while setting aside the fact that it is 
the world's foremost state sponsor of terror, even though Iran 
continues to engage in these terrorist activities by ignoring 
all other aspects of the Iranian regime's nefarious and illicit 
activities while continuing to negotiate over the nuclear 
program; how difficult has it made it for the United States and 
other responsible nations or allies to counter any of Iran's 
terrorist activities?
    And we have heard from all of you that the tempo of Iran's 
support for terrorism has seen a resurgence over the last few 
years. Whether it be through its proxies like Hezbollah or 
directly through IRGC or Quds Force, Iran is seeking to expand 
its terrorist network globally.
    What has the United States been doing to counter Iran's 
expansion and growing influence, especially in the U.S. and 
western hemisphere, and what more can we do or should we be 
doing?
    And Chairman Hoekstra, you testified that the Iranian 
regime is seeking to expand its terrorist activities to 
incorporate cyber attacks. We become more and more concerned 
about the threat of cyber attacks not only because of how 
harmful they can be and their ability to impact millions of 
people, but because of how vulnerable our national 
infrastructure is to these cyber attacks. And just last week 
General Keith Alexander, commander of the U.S. Cyber Command 
testified to the Senate Armed Service Committee that the U.S. 
does not yet have a line drawn in the sand that would prompt a 
U.S. response for a cyber attack and that our ability to stop 
terrorist attacks is actually going down.
    So, just how far advanced and sophisticated do you believe 
Iran's cyber warfare program to be, what would a cyber attack 
from Iran look like, and what are the consequences of failing 
to address this threat?
    We will begin with Mr. McInnis on the first question. Thank 
you.
    Mr. McInnis. Thank you, Chairwoman.
    Regarding the issues of negotiating with Iran on the 
nuclear program and the context of what it is still supporting 
for terrorism. I mean, one of the things that I have been 
trying to understand is what is driving Iran to the table over 
the last few months. And even though I think I am highly 
suspicious of Iran's intentions and its fidelity in its 
negotiations as is certainly shared by the rest of the 
committee here, in the end, Iran is looking for a way out on 
certain issues right now, and I think Iran is in a position, 
especially when it comes to its economy as well as what it may 
be facing in the region, and the war in Syria is the best 
example of this, that it has a lot of problems right now and it 
needs to find a way to get out of the pressure from the 
sanctions and from the U.S.
    So, I am certainly not opposed to, you know, pushing Iran 
to get to a point where we can verify that it is not pursuing a 
nuclear weapon. I don't have a lot of confidence in how we are 
going to be able to get there, but I don't think necessarily 
that it would be two separate things.
    I think what we would need to be doing is a full spectrum 
approach pushing against the nuclear program, pushing against 
terrorism, pushing against Iran's soft power efforts to spread 
its cultural religious and economic influence around the 
region. That is something that all needs to be done part and 
parcel. I can't see how you would separate them, though I 
obviously recognize that from a diplomatic standpoint, it is 
challenging to do both tracks at the same time, but I think we 
would need to find a way to do that.
    Ms. Ros-Lehtinen. Thank you so much.
    Dr. Levitt.
    Mr. Levitt. You hit the nail on the head. This is the you 
know, $60 million question, and I think the bottom line is 
this. The nuclear threat is the most severe threat. It is by no 
means the only one. I think if you try and put everything on 
the table at once, we are guaranteeing failure, as we have all 
said. The likelihood of failure is still very, very high. But I 
am not so concerned about whether or not we are insisting that 
this is being negotiated publicly at the table.
    First of all, we know that some things beyond the nuclear 
program missiles in particular have been brought up. Iranian 
officials and others have said this publicly. But the fact that 
we now talk in government about the Iran threat network, the 
ITN, when something gets an acronym in government, you know you 
have gotten somewhere. When I was in the Treasury Department 
and they started talking about FININT, Financial Intelligence, 
we knew that as a discipline within the intelligence community, 
we have gotten somewhere.
    There is a lot actually that is happening, but it tends to 
happen quietly. The one thing that happens publicly is 
exposures. So, for example, I am very proud that my former 
department, Treasury Department continues to expose Iran's 
illicit conduct around the world, including the things that you 
might consider to be quite sensitive.
    So, for example, the fact that al-Qaeda is playing both 
sides. Or Iran that is, is playing both sides. Obviously, they 
are defending the Assad regime in a huge way in Syria, and yet 
Treasury just exposed that they are allowing al-Qaeda to use 
Iran as a transit point for funding and supporting of its 
network from within Iran so long as al-Qaeda didn't carry out 
attacks in Iran to fund who? Jabhan Al-Nusra.
    This is huge, and we have done a lot diplomatically as 
well. So, for example, when weapons shipments from Iran through 
Iraq were caught going through Bahrain, it wasn't U.S. 
officials who were out there saying, hey, this is a problem. It 
was Europeans, and that is great. The European Union has banned 
the military interest wings of Hezbollah, not as much as we 
would have liked, but it is a good step. The GCC has done 
things, and in fact, we have had a shadow war with Iran over 
primarily its nuclear program, which suggests that actually 
into this administration some of the covert things have been 
going on quite nicely.
    So, I don't think it is fair to say nothing is going on, 
but we do need, and that is why I started my testimony by 
saying this is so timely, we do need to have public discussions 
about how important this is and how--it is not a very western 
way of thinking, but Iran continues to push this envelope even 
as it is sitting at the table.
    Ms. Ros-Lehtinen. Thank you, Dr. Levitt.
    Chairman Hoekstra.
    Mr. Hoekstra. Thank you, Chairwoman.
    A couple of things here. I think as I listen to the opening 
statements of the members, I share their concern that breaking 
the nuclear program off from all of the other activities that 
Iran has been engaged in is very, very concerning. Not knowing 
the parameters, or the public not knowing what the parameters 
of what those negotiations may or may not include is also of 
concern.
    You may remember back in 2007 you and I coauthored an op-ed 
piece and we wanted the Bush administration at that time to 
release the details of the attack against the Syrian nuclear 
plant, and this was some months after that, because we wanted 
the American people to know about the potential relationship 
between Iran and Syria and that this facility had actually been 
taken out.
    The third thing that you asked about was, you know, what 
are the cyber capabilities of Iran, and coming from the 
intelligence world, we have always been concerned about how 
little we actually know about Iran, whether it is its nuclear 
program or its cyber capabilities, but what we do know at this 
time, it has launched cyber attacks against the U.S., it has 
launched them against Saudi Arabia, it has launched them 
against a number of other entities around the world.
    Also, as experts have taken a look at their programs, they 
have said in a very short period of time in a surprising--that 
is always a concern in the intelligence community when you hear 
a surprise, but what they said 2 or 3 years ago, Iran was a 
Tier 2 or a Tier 3 capability, and today they have closed that 
gap dramatically, so there are two things that we are concerned 
about. How quickly they did it, and more importantly who helped 
them do it, because we believe that they probably didn't do 
this on their own. And the most likely candidate for that is 
the cooperation that they have with Russia.
    What would a cyber attack look like against the United 
States? Well, we have seen, you know, other people hacking into 
the systems, whether it is Target or something like that. I 
don't think that is what we would see. You would see something 
perhaps that would cause an economic disruption, which would be 
an attack against some of our financial institutions or our 
financial markets or those types of things or potentially 
against our infrastructure.
    The scary thing there is they have the capability to do 
that. We don't necessarily have the means to defend it, as 
General Alexander recently said, and the third thing is, if 
something like that occurred, it would be very, very difficult 
to pinpoint exactly who the perpetrators would be. It could be 
Iran, but it might be very, very difficult, if not impossible, 
to track it back to Iran.
    Ms. Ros-Lehtinen. Thank you very much, gentlemen.
    And now we will turn to my Florida colleague, Mr. Deutch, 
the ranking member of our subcommittee.
    Mr. Deutch. Thank you, Madam Chairman.
    Mr. McInnis and Dr. Levitt, you both talked about the 
current state of negotiations with Iran on the nuclear issue 
and the fact that the Iranians want to get out of the pressure 
of sanctions; everything can't be on the table at once. I would 
actually like to talk about how to keep up the pressure on the 
terror piece of this, even as these talks continue.
    And I suppose, Dr. Levitt, the first question is for you: 
Are the current sanctions effective enough--the sanctions that 
are aimed at terror financing, are they strong enough? Are 
there holes in the sanctions regime, particularly when it comes 
to Hezbollah?
    And though Iran ultimately would like to come out of, there 
is no question, would like to come out of the pressure of 
sanctions altogether, there is every reason, as for all the 
reasons that we have discussed here, there is every reason for 
us to continue to ratchet up the pressure on Iran with respect 
to its support of terror.
    How else can we do that? Where are the holes? And what else 
can we do to strengthen those sanctions?
    Mr. Levitt. Thanks so much for your question, Mr. Deutch.
    As a former Treasury official, are sanctions enough? 
Sanctions have gotten us very far, but there is always room for 
improvement.
    The whole nature of sanctions is that you take an action 
and you see how they react or try and evade; you take another 
action. There is a little bit of cat and mouse to this. And, of 
course, it also can't be done in isolation. Sanctions will 
never solve your problem. They will be effective if they are 
used in a wise way with other tools.
    Specifically, with Hezbollah and Iran, I would make these 
two comments: On Iran, as Chairman Hoekstra said, we need to be 
particularly focused on how they are trying to make 
relationships abroad to evade banking and other sanctions to 
move money around the world. We have seen some things in South 
America that have been disconcerting; Treasury has been on top 
of that. But this will continue.
    The other thing in Iran that is always a problem is kind of 
the boneyard system of these massive foundations, that lack any 
transparency whatsoever, the fact that Iran is consistently 
able to use these types of entities and front companies around 
the world to finance Hezbollah and others. And this is 
something we need to look at.
    In terms of Hezbollah, I think actually we are having a 
very good effect on Hezbollah's financing, in part because of 
some of the measures we are taking on Iran. At least twice, we 
know, over the past few years Iran has had to suddenly for a 
temporary period of time cut back their financing of Hezbollah, 
and that really upset Hezbollah. Hezbollah has branched out 
even more than it ever has into the criminal world, and that 
gives us great opportunities.
    I would love to see more U.S. Government actions targeting 
their black-and-white, open-and-shut criminal activity. Some 
see this as a sensitive thing to target, in part because we are 
in negotiations over the P5+1. I think we need to be more like 
Iran. They are willing to push the envelope, even as they sit 
at the table, on illicit conduct. We should be willing to push 
the envelope on holding them accountable for that illicit 
conduct, even as we sit at the table, as well.
    Mr. Deutch. Right. So when you talk about focusing on the 
criminal area, where? I mean, specifically, what else needs to 
be done? Where should that focus be?
    Mr. Levitt. Drugs, narcotics in particular. This is the 
single area where they are able to make the most money in the 
shortest period of time, not production but moving product from 
South America to Africa, then elsewhere, and also laundering 
the proceeds of that product. And there are investigations that 
are ongoing.
    Mr. Deutch. In the area of banking sanctions, sanctions 
against financial institutions, can any of you contrast the 
sanctions that exist with respect to the nuclear area and 
sanctions that exist for terror funding?
    Do the sanctions that are in place with respect to 
Hezbollah and terror funding go as far as in the energy area, 
the nuclear area? And if not, why not?
    Mr. Levitt. That is a hearing unto itself, but in a 
nutshell, the vast majority----
    Mr. Deutch. I have about 45 seconds.
    Mr. Levitt [continuing]. The vast majority of the banking 
sanctions are technically proliferation sanctions. Saderat is 
the example, the only one I can think of right now that is a 
terrorism basis. But it is not like Hezbollah uses this bank 
for terrorism and this bank for proliferation, and, whatever 
the reason, it has the impact across the board.
    The nature of the financial sanctions is that they will 
look for other ways to move their money. The nature of the oil 
and gas sanctions is that it is much more difficult for them to 
do that, the nature of that economy.
    And so we have to look for these small mom-and-pop banks or 
other means that they might move their money. I am less 
concerned with which Executive order is used, terrorism or 
proliferation or others, to effect a change.
    Mr. Deutch. Mr. McInnis, just before you respond--may I 
have an additional----
    Ms. Ros-Lehtinen. Please. Yes.
    Mr. Deutch [continuing]. Minute here, Madam Chairman?
    Ms. Ros-Lehtinen. Without objection, we can all go over.
    Mr. Deutch. You didn't intentionally gloss over that, but I 
just want to back up for 1 second. You said most of the banking 
sanctions that exist now are focused on proliferation. And we 
have those discussions here about how successful they have 
been, what other sanctions could be put in place? Legislation 
that we passed last summer was meant to do that. But those do 
have to do with proliferation.
    Couldn't the same sort of sanctions regime with respect to 
terror financing work? Why would we draw that distinction 
between proliferation and terror financing?
    Mr. McInnis or Dr. Levitt?
    Mr. Levitt. More often than not, it just has to do with 
what information is most readily available without 
declassifying really sensitive stuff that can underscore the 
designation. So if there is a bad bank, one of the things that 
will be looked at is, what is the world of information that is 
available, and what could be most easily made public and 
available?
    But it is also true that terror finance is much, much more 
fluid. It is much smaller amounts of money. And so it is much 
easier to find these bigger sums of money, these really 
important banks. If you find money going for terrorism through 
this bank today, they could just as easily do it through 
something else tomorrow, whereas for oil and gas is a lot more 
difficult. And so that tends to be the reason.
    Mr. Deutch. Okay. And, Dr. Levitt, I think you are 
referring back to your old position in that response.
    Mr. McInnis, let me ask you. Here is what I am getting at. 
I understand it would be tricky, and, certainly, there would be 
ways to evade them. But, ultimately, this is a major concern 
that the banks have, correct? The notion that we would impose 
sanctions based strictly on terror financing on those banks, 
for all the reasons that you discussed, Dr. Levitt, about how 
it is so hard to track, that is not something that they would 
be comfortable with, correct?
    Mr. McInnis. Certainly, given that the connections that we 
suspect are there between very senior levels of the regime, 
especially senior levels in the IRGC, and the front companies 
and the other, as Dr. Levitt mentioned, the gray- and black-
market activities that Hezbollah is engaging in in Europe and 
globally, that is something that, if they were targeted, you 
could go straight, in my opinion, straight for some of those 
key decisionmakers inside the regime in a way that is a little 
bit more difficult than on the nuclear program. And I think 
that is actually potentially one of the most lucrative things 
that we could do.
    One thing I would want to point out, as well, in 
relationship to the nuclear negotiations is, as I was 
mentioning before about Iran's relative weakness and why it may 
be coming to the table right now, I think we underestimate our 
leverage that we have against Iran right now, and I think we 
can actually push things further. And I agree with the other 
panelist here that we have more room to push during the 
negotiations.
    And I think, tied in with this issue, exposing more of what 
Iran is doing, especially the illicit activities that Hezbollah 
as well as senior leadership within the IRGC and the regime are 
doing, that undermines the moral foundation and the ground that 
Iran is trying to promote, which it has, frankly, lost quite a 
bit in the last few years within the Islamic world. Ever since 
the 2006 Lebanon war, it has been pretty downhill for Iran and 
its image within the Middle East. And this is something that we 
can take advantage of by more exposure of what Iran is up to.
    Mr. Deutch. All right. Thank you.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you. Excellent questions, Mr. 
Deutch.
    Mr. Meadows is recognized.
    Mr. Meadows. I want to go ahead and follow up on the line 
of questioning that the ranking member just provided, Dr. 
Levitt, if we could. Because as we start to look at this, you 
said that it could be very problematic right now because of the 
P5+1 negotiations that are going on.
    But has not Iran distanced themselves, saying that 
obviously they are looking for nuclear capability for peaceful 
purposes, that it has nothing to do with terrorism or the 
potential hostile act of a nuclear bomb?
    So with them distancing themselves from Hezbollah, would it 
not be very problematic for the Iranian regime if we put 
additional sanctions on some of those ``charitable'' or 
criminal activities? They would have to come to the defense; is 
that not correct?
    Mr. Levitt. Thank you for the question, Mr. Meadows.
    First of all, I wouldn't say that Iran is distancing itself 
from Hezbollah. It is distancing itself from some activities 
that are going on, but they are closer to Hezbollah than ever 
before.
    And they would say that everything is in context. If you 
blow up a bus of people here, it is terrorism; if you blow up a 
bus of people there, it is resistance. We don't accept that, 
needless to say, but this is----
    Mr. Meadows. Right.
    Mr. Levitt. But I do think, and Mr. McInnis made this point 
as well, that there is great utility in exposing conduct that 
even they would be embarrassed of--for example, as I mentioned, 
allowing al-Qaeda to finance for Jabhat al-Nusra within their 
country.
    Mr. Meadows. Right.
    Mr. Levitt. And there is lots more like that that could be 
done. And it is my understanding that people are looking into 
that. This is not an idea that people haven't thought of or are 
ignoring.
    Mr. Meadows. So both you and Mr. McInnis would encourage 
some kind of legislative sanctions or encouragement of this 
administration to look at identifying Hezbollah, in particular, 
from a standpoint of those activities. Because, as you both 
have mentioned I believe, much of that is criminal--drug 
trafficking, human trafficking, car smuggling, et cetera--that 
doesn't just happen in a faraway region but it is ever-present, 
not only in Latin America but Canada and other places that we 
would consider much closer allies.
    And so you would both encourage that?
    And I will start with you, Mr. McInnis.
    Mr. McInnis. Yes, absolutely. And, certainly, from our 
experience--and this is kind of going back to some of my 
previous rules and the knowledge from there--it is very 
difficult at times to put together the right kind of dossier on 
this type of effort and then be able to publicly present it in 
a way that actually has the effect that you are looking for 
from a soft-power perspective.
    You can certainly go after the hard-power aspects of 
sanctions and so forth. But it is one of the things that we are 
going to have to--it will be challenging for us, though I think 
we should absolutely do it, to find a way to get this material 
out in a way that still is seen, especially in the Islamic 
world, as credible.
    And that is one of the things that is a challenge for us, 
if we kind of have an--and certainly Dr. Levitt has many 
experiences with this. You know, if you put it out there in a 
U.S. Press conference, it has a certain amount of weight. If we 
can find ways to work with partners, in particular, to have 
them expose what is going on, you know, our allies in the 
region or other elements, ways to get this information out that 
isn't necessarily a very, you know, blunt instrument from us, 
that is something that I would, you know, certainly encourage. 
And I think it is going to take a little bit of talent to do. 
But I am absolutely all for finding ways to sanction publicly.
    I think it is not going to push Iran away from the table. 
They want a deal right now to get them out of the sanctions. 
And that is something that I think that they are going to go 
pretty far to get.
    Mr. Meadows. So how do we deal with the perception among 
some that do not view Hezbollah in that same vein? I mean, 
there are some that would view them as a charitable 
organization. You know, as we start to look at that--and we 
smile about it, but, you know, you have that happening across 
parts of Europe. And so, as we start to look at that, how do we 
address that?
    And then the other part of that is you have one group that 
says they are a terrorist organization, another group that says 
they are a criminal organization, and yet a third that says 
they are charitable. And yet, across jurisdictions, that 
becomes very difficult to address.
    So either one of you.
    Mr. Levitt. Thank you for the question.
    First, you know, in terms of sanctions, I would just say 
one of the things we need to be cognizant of in the current 
context of what is going on is the type of sanction.
    The simplest thing to do that would be the most nonpartisan 
would be to do follow-up sanctions on authorities that already 
exist, as opposed to brand-new sanctions. And that can be done 
in a way that could potentially be very bipartisan, as opposed 
to----
    Mr. Meadows. Right.
    Mr. Levitt [continuing]. Coming up with brand-new sanctions 
which, by some definitions, would be problematic for the Joint 
Plan of Action.
    The second is you asked, sir, about, you know, it doesn't 
always have to be us. Well, we have a delegation here from 
Indonesia. And in my book on Hezbollah, I get into great detail 
about Hezbollah's activities in places like Indonesia. And the 
Indonesians have been great partners on this. And it would be 
wonderful if allies around the world, including in places where 
you wouldn't think Hezbollah would be--in Africa, in Southeast 
Asia, in Indonesia, in Thailand, et cetera--if some of these 
governments were to do things to out those activities.
    And that is increasingly likely, because while it used to 
be the case that, well, some saw Hezbollah as legitimate and 
some as illegitimate, given its activities in Syria today and 
the nasty sectarian nature of this conflict, that is pretty 
much done. And so, especially predominantly Sunni countries 
today, I think, would be much more likely to expose Hezbollah 
for what it is, if only because of what it is doing in Syria.
    And that certainly was the case in Europe, sir, when they 
decided to ban the military and terrorist wings of Hezbollah. I 
was invited to testify before the European Parliament on this 
issue. For some governments, this had more to do with the 
Bulgaria bombing and the attempted bombing in Cyprus. For 
others, it had only and everything to do with what they were 
doing in Syria.
    And so, yes, while some see Hezbollah more political at 
home, terrorist and criminal abroad, increasingly people are 
coming to the realization that it is not an either/or. Whether 
you like them or not, they are a political party, they are a 
charitable organization, they are also a militia, they are also 
a transnational organized criminal organization and a terrorist 
group. How do you deal with a group that does all those things 
at once? You deal with all those things at once.
    Mr. Meadows. All right.
    I thank the patience of the chair.
    Ms. Ros-Lehtinen. Thank you. Excellent questions, Mr. 
Meadows.
    And, Mr. Sherman, ranking member of TNT Subcommittee, is 
recognized.
    Mr. Sherman. Thank you.
    Mr. Levitt, I agree with you that we have to at least use 
all the sanctions laws we have now. That is not only bipartisan 
but, I think, a near-universal view in Congress. And just a day 
after Secretary Kerry's testimony before this committee, the 
administration identified another 8 to 12 organizations that 
were subject to sanctions.
    The theory of sanctions is you are going to make the regime 
feel that it has to choose between its nuclear program, its 
terrorism, its wrongful acts, and regime survival. Sanctions 
are a blunt instrument. They cause problems to an economy. The 
elites rarely suffer. Middle class suffers; maybe everyone in a 
country suffers.
    And so, it being a blunt instrument, the question is, when 
you hurt a nation's economy, does that create anger in its 
government or solidarity with its government?
    We saw in South Africa that sanctions were very effective 
in causing an apartheid regime to decide to hand over the keys 
of power to the majority. We have seen many other circumstances 
where blockades, even bombings, et cetera, have united a 
populace behind their government.
    What can we do not to increase the economic effect of these 
sanctions--that would be another question, a good one--but 
rather to make sure that the populace of Iran loses faith in 
its government, try to recreate the situations of 2009?
    I don't know which of our panelists wish to respond.
    Chairman Hoekstra?
    Mr. Hoekstra. Yes, thank you.
    You know, as you were going through the question, my mind 
went back immediately to 2009. Because in 2009, at least as I 
recall it, we did not stand up and support the folks that were 
involved in the Green Revolution. And, you know, we sided and 
we leaned more over to the government and supporting the 
Iranian Government.
    You are giving me a funny look here.
    Mr. Sherman. Chairman, I have asked a question about the 
future, rather than----
    Mr. Hoekstra. Yeah.
    Mr. Sherman [continuing]. Critiquing the past.
    Mr. Hoekstra. But you have to look at the past to take a 
look at the future.
    And like I said when I started, I applaud the bipartisan 
effort and the work of this committee and the direction that 
they have been going. I think it is supporting the types of 
folks that were involved in the Green Revolution and sending 
that type of signal to Iran in the future that will get people 
to decide to join----
    Mr. Sherman. I would like to go----
    Mr. Hoekstra [continuing]. That direction and to do those 
kinds of activities.
    Mr. Sherman [continuing]. Go on to another question, 
because I am not sure that we are as universally loved in the 
villages of Iran as we would like to believe. I know that the 
sophisticates in Tehran that we tend to interact with are much 
more favorable to our position. But I want to go on to another 
issue.
    The ultimate terror attack is a nuclear attack against an 
American city. One possibility is we find that an MIT professor 
has been kidnapped, driven around Boston for a while, arrives 
at an apartment, is shown a nuclear weapon in an apartment he 
doesn't know where in New England it is, and he meets the 
gentleman in custody, who has been promised not 72 but 720 
virgins, and then appears at a press conference saying he has a 
note requiring that the United States Navy not be in the Gulf 
of Oman or the Persian Gulf or the guy gets his 720 virgins. 
Another possibility is this regime is faced with a 2009 
circumstance and, even worse, feels it is going to be 
overthrown, decides to go out with a bang against an American 
city.
    We would like to have a strong border defense, but I 
suspect that people in my State will be getting marijuana, and 
not all of it from Colorado. We are never going to have a 
border defense so significant that sophisticated drug dealers 
can't bring in a bale of marijuana.
    Chairman Hoekstra, if you can import a bale of marijuana, 
can you import or smuggle into our country a lead-encased 
nuclear weapon?
    Mr. Hoekstra. Yes.
    Mr. Sherman. So even if we had missile defense, unless our 
borders are as secure as I think they will never be, we are 
just months or years away from facing that as a threat.
    I don't know if we have any other comment from our other 
witnesses?
    Mr. Levitt. If I may, I will just, on your first question--
--
    Mr. Sherman. Uh-huh.
    Mr. Levitt [continuing]. I would say two things, if I may.
    First, in terms of theory of sanctions, there are actually 
two theories: One you highlighted, making the regime have to 
choose between its illicit activity and survival. And there are 
ways to improve that, as you have asked. I would highlight the 
need to focus on human rights abuses at home. And we have done 
some of that, and we could be doing more. As some on the 
committees have mentioned in their opening statements, this 
continues, and this is something that does have resonance with 
Iranians at home.
    The other is--and this is where we have had much more 
success--the other is disruption, where we are trying to 
disrupt the means through which they get their financing to 
their illicit--that is different from trying to necessarily 
make them choose. And, ironically, or unfortunately, that is 
where we have been more successful. Not that that is bad; that 
is good. But it means that it is much harder to have things 
that hurt in the right way, as you have said, that really have 
to make them have a choice. We have had some success----
    Mr. Sherman. I agree with you. We need to focus on our 
public communication to the Iranian people just as much as we 
focus on sanctions. And disruptions--who knows who did that, 
but it could have been us--that disrupted their nuclear 
program, but we have to get them to surrender their nuclear 
program. Otherwise we just set them back for a year, and then a 
year later they are back.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Sherman.
    Mr. Collins is recognized.
    Mr. Collins. Thank you, Madam Chair.
    I want to continue, and I think this--as one of the 
witnesses just said just a moment ago, I think there are 
several of these questions, and probably mine as well, that 
could be a whole other hearing as we deal with this issue.
    I think I have been on the record that the sanctions and 
this whole P5+1 deal, to me, was not very well thought out. It, 
to me, is going down a path that is problematic, some of that 
being in the issue of cyber, which I want to come back to in 
just a few moments.
    But also one of the areas that we have talked just briefly 
about in this hearing but I want to hear a little bit more is 
Iran's--and through Hezbollah and maybe through others--is the 
activities in the United States. We already know of the plot to 
assassinate the Saudi Ambassador, other things that we have 
seen.
    What are your feelings on that?
    And I know--and I can't remember, and I apologize--one of 
you had talked about Syria, which I do believe they are 
invested in Syria right now. They are trying to get other 
things off the plate so they can deal with that.
    Is there still that back thought, or has some of that been 
put on the back burner in dealing with America, with the 
Israelis? Because right now we have a large Israeli, you know, 
population in the United States living here, working here, and 
then also other Middle Eastern countries.
    And I just want a quick thought there, and then I want to 
jump to something else.
    Mr. McInnis. On the issue of potential threats inside the 
U.S., one of the things that--you know, we were at first kind 
of surprised by what happened with the plot against the Saudi 
Ambassador several years ago. But when you look at how Iran 
sees its threat picture, as well as what it is trying to do, 
having the ability to hit the U.S. On the homeland is something 
that I consider to be a fundamental objective that they are 
going to continue to try to have the capability to do.
    This goes back to also Iran's weakness, asymmetrically, the 
balance of power that it has with the U.S. We have the capacity 
to hit Iran with our military anywhere in their homeland. They 
do not have that capacity in their conventional--and that 
asymmetry in the battlefield that they face is one of the 
reasons why they drive to have the terrorist capabilities that 
they do.
    And having that ability to potentially hit our homeland 
provides a deterrent effect and a retaliatory effect that they 
don't have through conventional weapons. And it is something 
that I think--same reason why I see so much activity in Latin 
America as also part of this equation for Iran, that it needs 
to be able to operate here and to be able to threaten the U.S. 
On our home territory.
    Mr. Collins. Well, and I think that is--you know, we tend 
to think of this threat, I think, sometimes not existentially, 
in the sense of its being the Middle East, it is Israel, which 
we have got to do, I think, frankly, a better job of, whether 
it be with the nuclear capability program, which, you know, 
they have a vested interest as long as we have as well, but 
also seeing this move forward infiltrating here. And we have 
already seen evidences of that.
    Switching gears just a little bit, though, in dealing with 
the interim agreement on the P5+1 and the finances going cyber, 
Madam Chairman, is something that disturbs me, because it is 
the reach that they can have. They can sit inside their 
country, they can reach out.
    By taking the pressure off on sanctions, giving them money 
into this, are there any indications that we are going to see 
not just the diversion of attention in Syria right now but 
maybe expanding that cyber presence and having a little bit of 
freedom there? Because we are already concerned about others 
breaking, sort of, ranks with the sanction agreement. And I 
just want to hear some of your thoughts about that.
    Mr. Hoekstra. Well, the interesting thing with cyber is 
they increased their capabilities. And, you know, with all 
their hard power, they may be limited to what they can do in 
Syria.
    Mr. Collins. Right.
    Mr. Hoekstra. They have so much bandwidth, hard power, they 
are limited to Syria.
    The interesting thing with cyber is they are using a whole 
different set of resources and capability, and it is not a 
resource-rich investment that they require. Once they have the 
capabilities, they then can again reach into Africa, they can 
reach into Central America, South America, but they can then 
also reach into the United States. They can cross those borders 
effortlessly, and they can create a tremendous amount of 
mischief using their cyber capability.
    So it gives them a whole new battlefield in which to, you 
know, confront their enemies.
    Mr. Collins. Well, I think it is really interesting, 
because some of that asymmetrical, that cyber threat is 
something that we have worked on here on this committee, and my 
friend across the aisle, Mr. Schneider, and I have worked on 
the QME bill with Israel, and we have added in cyber, because 
we do believe it is something that needs to be addressed.
    One final, and I have 17, 16 seconds left. You brought up 
something, though, that I think, Madam Chair and others, we 
need to probably look into further, is the possibility of 
working with others in what I will call new dynamic 
relationships, not basically going into areas that we have not 
been before, but that Sunni connection, that Indonesia 
connection, you know, how we do that.
    Because if you look at some of the reports coming out, the 
concern of Iran is shared by the Sunni neighbors. It is shared 
by others. And they are sitting here saying you have this Shia 
and other capability going on here.
    So I would like to--at some point, maybe we can explore 
that more.
    But----
    Ms. Ros-Lehtinen. Look forward to it.
    Mr. Collins [continuing]. I appreciate your testimony 
today, and look forward to that.
    Madam Chair, I yield back.
    Ms. Ros-Lehtinen. Thank you so much. Look forward to 
working with you on that.
    Mr. Lowenthal is recognized.
    Mr. Lowenthal. Thank you, Madam Chair, for holding this 
hearing, and to the members of the committee.
    I would like to focus a little bit on something that has 
been mentioned a little bit, I think tangentially, and written 
up quite a bit by Chairman Hoekstra, and that is the Iranian 
presence in the Western Hemisphere, in South America and in 
Central America.
    And I want to ask you to respond to a couple of things from 
your report that you issued that we really didn't get a chance 
to hear very much about.
    One is, you talk about the Iranian active presence and 
extensive network in Latin America, that in addition to 
enjoying strong bilateral ties and state support from 
governments in Cuba, Ecuador, Nicaragua, and Venezuela, we fear 
that El Salvador may be the next to roll out the welcome mat. I 
would like to understand what the extensiveness of that state 
support is and how much attention we have not been paying or 
should be paying to this.
    Another one is, you also go back to a 500-page indictment 
or release by Alberto Nisman, who was the chief prosecutor of 
what took place in Argentina. In addition, you say the report 
has named Brazil, Paraguay, Chile, Colombia, Guyana, Trinidad, 
Tobago, and Suriname as countries that have been deeply 
infiltrated by Iranian intelligence. I would like to understand 
how deeply and how much we really have to be concerned.
    And then the final one is: You mentioned also, and others, 
about Hezbollah providing technology for the increasingly 
sophisticated narco tunnels that are now being found along the 
U.S.-Mexican border which strongly resemble the types used by 
Hezbollah in Lebanon. Is there independent evidence to indicate 
that we really have along our border Hezbollah doing that, or 
is that just speculation?
    And so I am kind of--anything that you have to do to focus 
on really the dangers of this increased terrorism in our 
hemisphere. I think a number of members have talked about it, 
but really not as focused as I would really like to hear from 
you.
    Mr. Hoekstra. Thank you very much----
    Mr. Lowenthal. And I thank you for what you have done so 
far.
    Mr. Hoekstra. Sure. Thank you very much for the question.
    I would encourage this committee and for these members to 
perhaps have a session with the Intelligence Committee and 
perhaps have access to certain classified information.
    When I was on the Intelligence Committee from 2001 through 
2011, the Iranian Hezbollah infiltration into Central and South 
America was an issue of major concern and major focus, you 
know, going from what Ambassador Bolton told this committee a 
year ago about Iranian Hezbollah presence in Venezuela in 
cooperation with Venezuela and moving all the way up to the 
border. It has been something that we in the intelligence 
community have--it has been documented. It is well-understood 
and is of major, major concern to us. And so it has been an 
ongoing activity.
    And what it becomes, especially for Hezbollah, it develops 
two things. It develops, as was brought up earlier in the 
hearing today, the narcotrafficking. It becomes a huge source 
of revenue for Hezbollah. And it is happening. It becomes a 
potential for smuggling resources from Central and South 
America into the United States. There is no doubt that 
Hezbollah is involved on the border.
    And, you know, El Salvador had an election at the beginning 
of February. They are going to have a follow-up, a runoff 
election very, very soon. And, you know, the favorite right now 
is expected to lead El Salvador into a direction that will have 
closer ties with Iran.
    Iran has seen Central and South America as a wonderful and 
fertile ground, and they love the location. So we have been--it 
is well-documented. We have been concerned. And, you know, it 
has been 3 years since I have gotten a classified briefing from 
the intelligence community. I think it would be worthwhile for 
this committee to ask for that briefing.
    Mr. Lowenthal. Thank you.
    Dr. Levitt, can you follow up on that?
    Mr. Levitt. Thank you very much.
    As Chairwoman Ros-Lehtinen noted, one of the last times I 
had the pleasure of testifying before this committee was on the 
Western Hemisphere report. I will refer back to that testimony, 
that discussion, where we noted that, despite this 
intelligence, there was apparently some miscommunication with 
those drafting the report. This is a very, very important 
issue.
    The thing with the tunnels is this: The tunnels we have 
found are very, very sophisticated. There are some ways they 
parallel tunnels that have been done by Hezbollah, but I have 
yet to see any evidence that it is actually Hezbollah doing it. 
Doesn't say yes, doesn't say no.
    We have seen movement across the border. The most 
significant, in the case of Hezbollah, was Mahmoud Kourani, 
arguably one of the most dangerous Hezbollah operatives ever to 
be in the United States. And he is one of only two I know of 
open-source cases, despite the vulnerabilities we talk about, 
but of only two known cases where actual terrorists did cross 
the border. One was a Somali Shabaab, the other was Mahmoud 
Kourani. And that is very, very disconcerting.
    In terms of the Nisman report, which is very, very 
important, there are lots of parallels that are happening today 
to the type of intelligence infrastructure that they created 
back in the day, in the early nineties, at the time of the 
bombing of the Israeli Embassy in Buenos Aires in 1992 and the 
AMIA Jewish community center bombing in 1994.
    Back then, people talked about the key Iranian involved 
recruiting people to serve as, as they describe them--their 
words, not mine--his antennas. Taxi drivers, all kinds of 
people reporting back on all kinds of things going on. And 
Nisman describes in some very disturbing detail how this is 
happening even today and one case where there has connectivity 
back to the United States.
    Mr. Lowenthal. Thank you.
    And I yield back my time.
    Ms. Ros-Lehtinen. Thank you. Excellent question. Thank you, 
Mr. Lowenthal.
    And pleased to welcome Dr. Yoho.
    Mr. Yoho. Thank you, Madam Chair. Appreciate it.
    Gentlemen, I appreciate you being here.
    And I listen with, I don't know if it is fear or just great 
consternation. You were talking about--man, I have so many 
questions. You were talking about the severe sanctions in Iran. 
How much more severe can you make them?
    And before you answer that, I want to add that it seems 
like they got to a point where they kind of levelled out, as 
far as the effectiveness of that. Am I right in that, or is 
that a wrong interpretation?
    Chairman, do you want to go with that?
    Mr. Hoekstra. You know, one of the things that has happened 
with the sanctions is that I think you do reach a point where 
you level off, in terms of exactly the amount of capabilities 
that you can have, unless you just ratchet it down and you 
actually close it off.
    Mr. Yoho. Well, that is what I was seeing, because, as I 
read through these reports, as severe as the sanctions are that 
we thought, what I saw was Iran had met a steady state, and 
they were supplying militants and guns and that, and then they 
were expanding in South America. And so it didn't seem like it 
had the effect that we were hoping it would. And I know other 
nations are complicit in that.
    What else could be done? And I know we can't do it by 
ourself; you have to have cooperation amongst the international 
community. You know, in your experience in 9 years on the 
Intelligence Committee, or 10, what else would you say would 
have to be done to make those more effective? And is that the 
way we need to go?
    Mr. Hoekstra. Well, the sanctions become much more 
effective the larger the group of people who are actually 
working to implement the sanctions. The thing that I am looking 
for, or the thing that now raises concern with me as we move 
forward is what has happened in Ukraine over the past weekend. 
I think it is going to be much more difficult to get a 
coalition to expand and strengthen the sanctions if the P5+1 
talks fail.
    That is where we are right now, okay, in that we have eased 
sanctions. If the P5+1 talks fail, the question will be, how do 
we strengthen the sanctions, reimpose them to ratchet down? I 
think it is going to be much more difficult to do so in the 
future.
    Mr. Yoho. All right.
    Dr. Levitt, let me ask you something. You were talking 
about human abuses at home, to promote that more in Iran. How 
effective is that and has it been in the past? And is there a 
lot of media sanctions, where that word doesn't get out over 
there?
    Mr. Levitt. We have done very, very few sanctions that are 
specific to human rights abuses. The human rights abuses have 
continued and expanded over time, including recently under the 
Presidency of Rouhani. And I think that there is a lot of 
benefit to be made by showing solidarity with the Iranian 
people over something that is a universal issue.
    On the issue of sanctions, I would echo what Chairman 
Hoekstra said, a need to balance our tools, not only in the 
unilateral and the multilateral, which is very true, but also 
in the full toolkit. As I mentioned earlier, sanctions are only 
one tool, and if we only focus on those, they can only be so 
effective. When I was in government, I used to sometimes push 
back on saying, you know, let's sanction this, let's sanction 
that. Sometimes you have difficult problems, no one would have 
a good solution, surely Treasury can sanction something.
    Here is an example where other tools will be very 
effective, too, and as I have testified before this committee 
in the past: We should be reaching out to our allies in the 
region, we should be sharing information with people who even 
aren't our allies to show the nature of the activities that the 
Iranians are engaging in in the southern half of the Western 
Hemisphere. And we should be pushing them to do things like we 
have done: Limiting the miles, concentric circles that Iranian 
diplomats can travel, limiting the number of diplomats who come 
in the country, the number of visas that are given. There are 
ways to constrict their activities beyond just financial 
sanctions, and I think we have to think more creatively about 
that.
    Mr. Yoho. Okay.
    And I want to ask all of three of you this. This will be a 
short answer. As Mr. Sherman brought out, you know, Hezbollah 
and others could be bringing WMDs across our southern borders--
any of the borders, I guess, realistically. Would you recommend 
securing the border as an issue of national security?
    Mr. McInnis. Yes.
    Mr. Hoekstra. Absolutely. But----
    Mr. Yoho. Thank you.
    Mr. Hoekstra [continuing]. I think as Representative and 
Ranking Member Mr. Sherman said, will we ever get to a point 
where you have a totally secure border? I mean, the decision 
that the Members in Congress will have is it is going to be a 
risk/reward effort. How much money are you willing to spend to 
secure the border to what extent?
    But will you ever get to a fully secure border where they 
couldn't sneak in a nuclear weapon or WMD or some other 
materials? You know----
    Mr. Yoho. I think, more importantly, can you afford not to 
secure the border?
    And, Mr. Levitt, your answer on that, to secure the border, 
national security?
    Mr. Levitt. There is no such thing as 100 percent. So I 
think to say, you know, can we afford not to be secure, it is a 
false question.
    I would recommend the committee hearing from people in 
government who are doing this. We have put a lot of time, 
effort, and money toward this. I think we do a very, very good 
job.
    I am not fully convinced that smuggling a device across the 
border would be as easy as everybody thinks, but I am not an 
expert in it. But I think the committee should hear from people 
who have, you know, career expertise on the issue.
    Mr. Yoho. I yield back. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Dr. Yoho.
    Mr. Cicilline, Mayor.
    Mr. Cicilline. Thank you, Madam Chair.
    Thank you very much for your testimony today.
    And I would like to ask all of the panelists to address the 
question of how you believe the relationship between Iran and 
Hezbollah will change if the Assad regime falls. And are they 
contemplating that? And is there a long-term strategy for Iran 
in Syria? Or, sort of, what is driving their decision making 
with respect to their participation?
    Mr. McInnis. When it comes to what Iran has been looking at 
as the plan B, that is something that, in many ways, was what 
drove their calculus to really ramp up what they have been 
doing the last couple years, because they realized that plan Bs 
do not look very good for Iran and Syria.
    Without that, kind of, beachhead that they have in the 
Levant with Syria, it is extremely difficult for them to be 
able to execute not only the major elements of their foreign 
policy, but it really undermines that whole narrative that they 
are leading this charge against Israel, against the West, and 
it brings into question the whole survivability of Iran itself 
if it loses Syria.
    What we certainly would imagine is they will look to build 
up second-tier elements in Syria that would look, what I would 
kind of think look like Hezbollah, many Hezbollahs, that would 
be able to provide some form of influence and activity inside 
Syria.
    From Hezbollah's perspective, you know, they are also in an 
extremely difficult position if they lose Syria. And, frankly, 
what they have done, even though it has been very interesting 
from an operational standpoint of what they have been able to 
do inside Syria, this expeditionary effort that they have had, 
it has also left them, in many ways, more vulnerable back at 
home. And they are increasingly in a position where they are 
having to defend their backyard. There are growing concerns 
about Sunni extremism in the north and other places inside 
Lebanon.
    And so what you are seeing is, if you lost Syria, you know, 
Lebanese Hezbollah would actually be in a very, very dire 
situation, in my opinion. It would force them, in many ways, to 
find a new path forward inside the state to be able to 
continue. Because I think they can theoretically survive 
without Iran as some type of political entity, but it would be 
very difficult for them.
    Mr. Levitt. Iran and Hezbollah are not about to have a 
breakup, not any time soon. There is a core, fundamental 
theological underpinning between them ever since Iran sent 
1,500 Quds Force operatives to the Bekaa Valley to help find 
them in the early 1980s. If anything, the conflict in Syria is 
driving them closer together. And should they lose in Syria, I 
think that that wouldn't break them up; it would only harden 
still, because Hezbollah, Iran's strategic partner, would need 
Iran even more.
    It is important to note that our understanding now is that 
when Iran first asked Hezbollah to get involved, they sent 
someone from the Quds Force, and that Hezbollah actually first 
said, maybe we shouldn't do that, because they understood that 
this would be bad for the brand. Right? There is no way to say 
that we are resisting Israel when we are targeting fellow 
Muslims in Syria.
    A Lebanese Shia satirist wrote in a Lebanese newspaper, 
``It looks like the boys from Hezbollah have lost their maps.'' 
Right? They are no longer engaging in resistance. They are no 
longer doing, as they always say, something that is in 
Lebanon's interest; it may not be clear at first. Well, this is 
not. If you are a Lebanese of any confessional faith, your 
number-one concern is renewed civil war, and Hezbollah is not 
doing anything good there.
    But then Iran sent a representative, we understand, from 
the Office of the Supreme Leader. Now we get into the principle 
of velayat-e faqih, the rule of the jurisprudent. And, at that 
point, when they say, ``Jump,'' you say, ``How high?'' And that 
is exactly what happened. And Hezbollah was told not only to 
act but to act decisively. And they have done that. And this 
solidifies that strategic partnership.
    Mr. Hoekstra. I agree with what my colleagues have said 
here.
    I think the other question that you get that goes beyond--
you know, Syria has clearly created a fault line and has 
highlighted the divisions between the Shias and the Sunnis. But 
the real question, you know, moving beyond Syria is, what is 
the level of participation and cooperation--and I go into this 
in my full testimony--that might evolve in the future between 
organizations like Hamas, Hezbollah, Iran, and al-Qaeda? Once 
we get past Syria, and that has played out, is it possible for 
these organizations to create greater cooperation and move 
forward? They have done it on isolated events in the past, but 
can they develop a more unified global strategy?
    Mr. Cicilline. And may I just ask, Dr. Levitt, this final 
question to you. You made reference to two things: One, that 
there is a lot more that we could be doing to show the 
deceptive conduct of Iran and, sort of, diminish their standing 
to the rest of the global community. Can we start that process 
this morning? And maybe share with us some more examples.
    And, second, you made reference to highlighting the human 
rights abuses as a powerful tool. Why is that an effective 
strategy? What do you think is the best way for us to use the 
human rights abuses in Iran to advance that objective?
    Mr. Levitt. Thank you for the question.
    Look, this is a universal right, this is something that 
resonates with Iranians, when they see people, you know, being 
murdered for their faith or what have you. And finding ways to 
highlight this shows that we are not the other, we are not, you 
know, the big Satan, we are people like they are, and we stand 
up for human rights wherever they are.
    And it, by the way, shouldn't always and only be us. The 
same way we were talking earlier about how, you know, 
Indonesians or others could be highlighting the activities of 
Hezbollah in their area, a universal right should be 
universally supported.
    But there are sanctions that could be done specifically 
about human rights violators. We have done that with people who 
are violating human rights--Iranians violating human rights in 
Syria, for example. Qasem Soleimani, the head of the Quds 
Force, has been designated three times--that is great--on a 
proliferation platform, a counterterrorism platform related to 
the plot here in DC, and human rights platforms. Great. Let's 
have some about what is happening in Iran, not only about what 
Iranians are doing to violate human rights in Syria.
    On the deceptive conduct, maybe we can follow up after the 
hearing. I am not in government anymore and, like Chairman 
Hoekstra, haven't received classified briefings in quite some 
time. But Iran's deceptive conduct continues in all kinds of 
different ways, and there are things that we need to be doing 
to try and--and I am sure are being done--to highlight these.
    And I think the fact that Treasury has continued to do 
exactly these types of designations indicates that the 
administration is willing to pursue these things, even things 
that might otherwise be seen as really sensitive, especially at 
a time during the negotiations, in particular the case of al-
Qaeda in Iran.
    Mr. Cicilline. I thank the chairman for the courtesy and 
yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Mr. Vargas is recognized.
    Mr. Vargas. Thank you very much, Madam Chair, once again.
    I see that and I believe that a nuclear Iran is still the 
most serious threat to our national security, and especially 
because I think if they had the nuclear weapon, they would be 
one of the very, very few nations that would be willing to use 
it.
    And I thought that the sanctions were working, and I 
thought that the sanctions were working because they had real 
consequences in Iran. We could argue, as was argued a little 
bit earlier, whether they harm the regime more than the 
population as a whole or whether the elites get a pass. I 
personally think that they will work and that is why they 
wanted to negotiate.
    I did hear today that maybe there are other things that we 
can do. We can expose them, we can disrupt them. But, you know, 
I don't think that those things work so well. I mean, you take 
a look at Russia. You know, it seems like, you know, that 
saying that you are not going to have the next meeting in 
Sochi. Well, so what? Are they still going to buy our gas in 
Europe? That is what they care about. And they rolled the 
tanks.
    You know, Iran executes two-thirds of all the children 
executions in the world inside Iran; that is what it is thought 
to be. And, for me, that would seem that that would embarrass 
the hell out of them. It doesn't seem to.
    So I don't know, I guess I ask you, I sort of throw up my 
hands and say I think we are being incredibly naive when we 
think that anything but real pressure will cause them to act 
differently.
    Mr. Chairman, what do you think about that?
    Mr. Hoekstra. I am skeptical of the soft-power efforts. I 
really would agree that the most effective tool would be strong 
economic sanctions. That is actually what has an impact and 
gets people's attention.
    Mr. Vargas. Doctor?
    Mr. Levitt. Look, as a former Treasury official who was 
involved in this, I love that everybody thinks that that is 
working and that is great. And I would certainly agree that it 
was working, that it is working, and that it can continue to 
work.
    But I will say again: Sanctions, financial tools alone will 
never solve your problem. We have to fold in other tools. I 
think not to do that is naive. To think that if you only expose 
human rights, that that will solve your problem, is also 
absolutely naive.
    But I think one of the reasons that the Iranians don't 
really--you don't really see an impact by the fact that 
apparently two-thirds of all children killed are--is because 
that doesn't get out there. That is not in the Iranian media. 
And we are not, others are not making that public. Let's make 
that public.
    Not that that alone will solve the problem. But how do we 
leverage all elements of national power----
    Mr. Vargas. Uh-huh.
    Mr. Levitt [continuing]. Together to have an impact? And I 
think that there is no question, the sanctions have been the 
single most effective thing, but there are other things we can 
be doing, and sanctions alone are not a panacea.
    Mr. Vargas. Mr. McInnis?
    Mr. McInnis. Yeah, I would just add that one of the things 
we should keep in mind is that, given how essential both its 
support for terrorism as well as the nuclear program itself is 
so essential for Iran's ideology as well as its national 
security, it is almost impossible to break the bank on them.
    This is something, from a sanctions perspective--you know, 
what we have seen in Syria, for example, where Iran has offered 
up, you know, maybe $13 billion, $14 billion in loans to the 
Assad regime in a time when it is having significant economic 
problems, it shows you, you know, for things that really, 
really matter to Tehran, they are going to go--it doesn't 
matter how much money we take away from them.
    However, disruption and pressure, making things more 
frustrating for them--and they do respond to disruption and 
pressure. And I think they have made changes in their calculus 
of how they are going to operate based on what we are willing 
to do, what they think we are willing to do, to push back.
    The challenge for us is that, you know, as long as this 
regime is as it is, it will continue to support terrorism and 
will continue to pursue a nuclear weapons capability, even if 
it puts it in kind of a mothball stasis for a while during the 
negotiations.
    So that is something that, you know, if we are hoping to 
really achieve America's interest here, we have to recognize 
that the best we can do right now is push back, make it 
frustrating for them, and have them recalculate. And then as 
over time that erodes the credibility of the regime, it 
hopefully will change the regime internally.
    Mr. Vargas. Well, I guess my faith in the notion--the soft 
pressure that we are applying is really Western soft pressure, 
it is not really affecting them much. I think the pressure of 
the sanctions was really hurting them. You know, when the 
economy starts to falter and potentially collapse, that is the 
type of pressure I think that works. I think it is the type of 
pressure that has always worked.
    And so, anyway, I appreciate you being here. I hope I am 
wrong, but I really do appreciate the time.
    Yeah, Doctor, you had a comment?
    Mr. Levitt. If I could just add one more thing. Key here is 
the administration has said that if and when the Joint Plan of 
Action doesn't produce results, that the sanctions will be 
revisited. This has been stated many, many times.
    This has to be a credible threat. And the question is, what 
is the timetable? Right? So we need a little more clarity on 
what the timetable is. Is it 6 months? Is it a year? Under what 
circumstances will it be renewed?
    Because that obviously gets to the point that you are 
making of the sanctions and whether the threat of renewing 
really serious sanctions is near-term or not.
    Mr. Vargas. Thank you. Thank you, sir.
    Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Vargas.
    Mr. Schneider is recognized.
    Mr. Schneider. Thank you, Madam Chair.
    And, Dr. Levitt, I couldn't agree with you more. I think 
that is why, you know, my position is it is essential that this 
Congress presently state very clearly that the sanctions that 
would follow an unsuccessful completion of the Joint Plan of 
Action would be a level of sanctions not back to what we had 
October 2013 but orders of magnitude greater. And the more 
clear we can be now, today, I think the better the incentive 
for Iran to stay at the table and complete those negotiations.
    But I want to turn to the cyber threat, Chairman Hoekstra. 
And my friend and colleague, Mr. Collins from Georgia, I think 
was perhaps overly modest. We talked about the Israel 
Qualitative Military Edge Enhancement Act and its turn to 
cybersecurity as a part of that. Because it is important, as 
you have all mentioned, Iran closing that gap, that is where a 
country like Israel can't match the threat of numbers of 
troops, that qualitative edge is crucial. And the qualitative 
edge today is so much more so at the cyber front.
    What do you see as the critical things, both vis-a-vis the 
United States protecting its assets from a direct attack or an 
attack to our financial, our grid, whatever that may be, and 
also working with our allies like Israel to make sure that they 
are protected against a cyber attack?
    Mr. Hoekstra. I mean, the threat that we have is that we 
have no unified U.S. Strategy to protect cyberspace--you know, 
so a unified Federal strategy or a national strategy to protect 
our banking structure, to protect the markets, to protect our 
infrastructure; you go right through the list.
    And, you know, I know Congress has been struggling with 
this for an extended period of time, in terms of what is the 
balance between the role of government, government incentives, 
and those types of things to help the private sector.
    So, you know, when you get the head of U.S. Cyber Command 
getting up and saying, you know, ``We are not ready to 
defend,'' that has to be scary to all of us. And Congress needs 
to work with the administration in developing that strategy to 
protect us.
    You know, I think we all know our capabilities offensively 
are tremendous. All right? Our capabilities through NSA, which 
have been revealed through Snowden. We have some great 
capabilities. So offensively we are doing just fine. It is on 
the defensive side that we are just so vulnerable.
    Mr. Schneider. Well, I am pleased to say that the House 
voted 399 to zero for that. I think we do need to come to a 
unified approach, as you touched on.
    Let me shift gears a little bit, and I only have a little 
bit of time, but what I have heard from the panel today--and, 
again, thank you for your comments. This has been very 
informative.
    But if I summarize, Iran is driven by goals and strategies. 
Iran's goals are survival, regional hegemony, and a spread of 
its revolutionary ideology. And Iran is willing to use all and 
every tool at its disposal and is consistently expanding those 
tools. That is the threat of Iran's nuclear program, that is 
their terror network, that is their cyber threat. And, as was 
said--I think, Dr. Levitt, you said it--for them, it is an all-
at-once strategy, and we need to have an all-at-once response.
    My question, if you will, is the pressure points. What 
opportunities do we have to pressure Iran within the context of 
all-at-once on their side and all-at-once on our side that can 
be most effective now? In the context of the JPOA, in the 
context of what is happening in Ukraine, where should we be 
focusing our first attentions?
    Mr. McInnis?
    Mr. McInnis. I think first and foremost is coming up with a 
better approach to Syria would be something that could have an 
immediate effect on Iran's calculus. I think that is something 
that--you know, Iran is right now, as we have discussed, is all 
in in Syria. It is an existential problem for them. They will 
do whatever it takes to keep Syria going. But, at the same 
time, that also induces a potential for significant overstretch 
on Iran's part. And it is something that, you know, we could 
certainly take advantage of in many, many ways, both exposing 
their behavior and their activities against fellow Muslims 
there inside Syria, as well as, frankly, it is eventually going 
to become a personnel resource drain for them.
    You know, it has been talked about, you know, can Syria 
become the next Vietnam, you know, Iran's Vietnam? Maybe. But 
it is something that--Iran is more committed to Syria than any 
type of expeditionary force that the U.S. has encountered or 
has engaged in in the last several decades.
    So this is something that I think is a first step.
    Mr. Schneider. Dr. Levitt, briefly?
    Mr. Levitt. Yeah, I completely agree. I think that we make 
the mistake of trying to put Syria in one box and Iran in the 
other. The most important, critical area where we need to push 
back on Iran is Syria.
    And there was a Wall Street Journal article not a long time 
ago that pointed out in the title that the reason for the Assad 
regime's comeback is because of our mismatched commitments. 
They are fully committed and all in. And we, and I don't mean 
only the United States, we, the West, are not. And that will 
continue to be a problem unless we change it.
    Mr. Schneider. Chairman Hoekstra?
    Mr. Hoekstra. Yeah, thank you. A very, very difficult 
question.
    I would probably tend to disagree with my colleagues on the 
panel in talking about that the focal point at this time is 
Syria. The time may have passed in Syria to develop an 
effective strategy. And it is one thing to say, ``Develop an 
effective strategy,'' without identifying one. I am at a loss 
at this point in time to identify an effective strategy with 
where Syria has evolved to over the last 12 months. You know, 
we don't have a strong role there. And the opposition now to 
Assad is primarily dominated by the jihadists and al-Qaeda and 
those types of groups.
    So where you go and what our role or what the West's role 
in Syria might be--my concern is, as Congressman Vargas said, 
we gave away perhaps our most effective tool with sanctions and 
the ability to reimpose them as part--and I agree--as part of a 
unified effort, a full-forced effort, you know, we have given 
that tool away.
    Mr. Schneider. Well, again, thank you very much.
    I wish we had more time for further conversation. The 
transition from proxy to partnership of this terror network, I 
would like to have the opportunity to explore that further.
    So thank you very much. I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Schneider, excellent 
questions.
    And now we turn to Mr. Connolly for his questions.
    Mr. Connolly. Thank you, Madam Chairman.
    And welcome back, Pete, to the Congress. You just said we 
gave away one of our most effective tools, sanctions. What did 
you mean?
    Mr. Hoekstra. Well, I believe with the P5+1 talks we 
relaxed sanctions. All right.
    Mr. Connolly. Would you rather have not had the interim 
agreement? I mean, is it your view that we should have just 
kept sanctions on and ignored those talks and the Phase I 
negotiations that were completed; is that better?
    Mr. Hoekstra. As I said earlier in my opening statement, 
developing foreign policy, I recognize how hard it is. Yes, my 
preference would have been to maintain the sanctions in place.
    My experience in dealing with Iran and watching very 
closely their nuclear program from my perch at the Intelligence 
Committee has been that, you know, one of the things and one of 
the tools and the most effective tools that Iran has used in 
the past, is negotiating for more time to forward its goals and 
objectives, and I believe that that is what we are involved in 
with the P5+1 that they are negotiating. Through negotiating, 
they are not only getting more time for development of their 
nuclear program but also for their wide range of other 
activities.
    Mr. Connolly. Gotcha. So you would not have--in fact, you 
wouldn't have even entered into these negotiations then, given 
that point of view.
    Mr. Hoekstra. I would have entered--I would have been more 
than willing to negotiate with Iran, but I would have expected 
more up front action before there was an easing of sanctions.
    Mr. Connolly. Dr. Levitt, do you agree with that point of 
view?
    Mr. Levitt. Thank you for your question.
    I think the real issue with the sanctions is perception and 
misperception. I think part of that is, as the chairwoman 
opened today's hearing with, is that not all the information 
has been released publicly, and that creates a lack of 
transparency.
    A lot of people talk about sanctions being dropped, 
sanctions being lifted. They have been suspended, and that is 
an important difference, and the things that have been 
suspended can be put back in place. It is not even put back in 
place, resumed very, very quickly. We haven't removed anything.
    The real issue is that this perception has trickled down 
now to the private sector. You do have now businesses knocking 
at the door, and that is important because it creates political 
pressure. You are going to have, if you haven't already, big 
business come knocking at your door.
    Mr. Connolly. Well, let me--thank you. But, Mr. Hoekstra 
just said we gave away the most important tool we have, 
sanctions. Do you agree with that, that we gave it away by 
agreeing to a Phase I interim agreement to basically roll back 
the nuclear development program in Iran?
    Mr. Levitt. I agree that there is a perception out there 
that we gave it away. I don't think we did, but I think the 
fact that we are not countering that perception is a problem.
    Mr. Connolly. Does Iran have that perception?
    Mr. Levitt. That is an excellent question, because when you 
are trying to deter someone from doing something, the only 
thing that matters is whether they believe that your threat is 
credible, and I'm not so sure they do anymore.
    Mr. Connolly. Well, what do you think motivated Iran to get 
to the table in the first place?
    Mr. Levitt. I think that it was primarily the sanctions----
    Mr. Connolly. Right.
    Mr. Levitt [continuing]. Without question.
    Mr. Connolly. So you think in this brief period of time, 
Iran has gone from these are hurting, we have got to do 
something to reverse this, especially with the new President 
who has got a mandate, perceived mandate, to the point where, 
you know what, we don't--we can use this, Mr. Hoekstra 
suggested that it may be true, that Iran's just buying time 
here, they are not serious, that none of the things they have 
agreed to really are material, and they are no longer afraid of 
the United States or the West in terms of economic sanctions. I 
find that really hard to believe.
    I mean, all that matters at the end of the day, I mean, 
these other things matter, but what does Iran think? And you 
have to deal with the fact that Iran came to the table. We 
haven't even talked to Iran since 1979 virtually, and they 
agreed to certain metrics.
    Now, we can all debate whether those metrics are 
substantial enough or whether at the end of the day they really 
work or whether they are subterfuge for something else, but the 
fact of the matter is they agreed to those metrics, and they 
are under enormous scrutiny internationally on whether they 
comply with those metrics and what happens to the next stage, 
and you know, I mean, the proof of the pudding will be in 
whether we meet those metrics, it seems to me, not whether some 
businesses think sanctions have been relaxed to the point where 
they can now apply to do trade with Iran.
    What matters is the people at the table, face to face, what 
do they think. And, that is really, to me, the critical 
question. If they think we are not serious, if they think we 
are not ready to resort back to the tool Mr. Hoekstra thinks we 
gave away, well, then, then we are really in a world of hurt, 
it seems to me. And I am not worried, Mr. Hoekstra is, I'm not 
at all sure that that is the case.
    Final question. Mr. McInnis, you talked about Syria being 
an existential issue for Iran. Could you just explain that just 
a little bit; how is it existential?
    Mr. McInnis. Thank you for the question.
    What I would say is for Syria and Iran's relationship, may 
have started off back in the early 1980s as kind of a marriage 
of convenience, where they were basically the only ones 
supporting each other after the 1979 revolution in that area, 
but over time it has become so entwined, the relationship 
between the states, that Iran sees Syria as its strategic depth 
in the sense that if it needs to keep the fight, and aside from 
being able to, of course, promote its ideology and push against 
Israel and the West there in the Levant, it needs to have a 
place that its enemies are fighting not at its borders, in a 
place that, you know, that is a viable retaliatory and 
deterrent capability.
    And that is what you typically see is one of the things 
that we fear that is in the calculus for the U.S. Government or 
the Israeli Government if we look at a potential strike on the 
nuclear weapons program, the fear of the Levant blowing up, the 
fear of terrorism exploding in the region comes from that 
ability to have that base there in Syria.
    If it doesn't have that base in Syria, it is very difficult 
for it to do that, and Iran is going to feel itself to be 
extremely vulnerable, and also, on the soft power side of it, 
it is the ideology, that Syria is the focal point, it is the 
crux of that resistance, and if that resistance falls apart, 
the whole project that Iran has been engaging in since the 1979 
revolution comes into question, and that is something that I 
think Iran fears what will happen if it loses Syria to the 
point where if, frankly, we have even had some comments, if I 
am not mistaken, from IRGC leaders that Iran is more willing to 
lose the Arab province of Khuzestan there in the southwestern 
part of Iran, the Arab speaking part of Iran, will be more 
willing to lose that than to lose Syria because they can, just 
like they did during the Iran/Iraq war, they can regain that 
province there, but if they lose Syria, they can't regain what 
they have in the rest of the Middle East.
    Mr. Connolly. Thank you. My time is up.
    Thank you, Madam Chairman. Fascinating conversation.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly.
    And I would like to, as we wrap up this hearing, remind 
members if they look at the memo that we have prepared about 
Iran's support for terrorism worldwide, I would like to 
emphasize that Iran, through its proxies, continues to launch 
attacks against the MEK at Camps Ashraf and Liberty in Iraq 
with one attack, the one in Camp Ashraf in September 2013, 
leaving 52 dead and 7 missing, and there have been several 
attacks on Camp Liberty also with deaths and many hurt, so this 
is an ongoing problem that is not in the past tense, and we 
will continue to monitor that situation.
    Thank you gentleman for your excellent testimony.
    Thank you to all of our members for participating, and with 
that, the subcommittees have adjourned.
    [Whereupon, at 12:20 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
